<html>
<title> - INTERNATIONAL PROPOSALS TO REGULATE THE INTERNET</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            INTERNATIONAL PROPOSALS TO REGULATE THE INTERNET

=======================================================================


                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2012

                               __________

                           Serial No. 112-145



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
79-558                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARY BONO MACK, California           DORIS O. MATSUI, California
MIKE ROGERS, Michigan                JOHN BARROW, Georgia
MARSHA BLACKBURN, Tennessee          DONNA M. CHRISTENSEN, Virgin 
BRIAN P. BILBRAY, California             Islands
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
PHIL GINGREY, Georgia                FRANK PALLONE, Jr., New Jersey
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan (ex 
ADAM KINZINGER, Illinois                 officio)
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     4
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    10
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................    10
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    11
    Prepared statement...........................................    13
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................    14
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    14
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    15
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    15
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    16

                               Witnesses

Philip L. Verveer, Deputy Assistant Secretary of State and U.S. 
  Coordinator for International Communications and Information 
  Policy, Department of State....................................    17
    Prepared statement...........................................    20
    Answers to submitted questions...............................   106
Robert M. McDowell, Commissioner, Federal Communications 
  Commission.....................................................    28
    Prepared statement...........................................    31
    Answers to submitted questions...............................   112
David A. Gross, Former U.S. Coordinator for International 
  Communications and Information Policy, Department of State, on 
  Behalf of the World Conference on International 
  Telecommunications Ad Hoc Working Group........................    69
    Prepared statement...........................................    71
    Answers to submitted questions...............................   115
Vinton Cerf, Vice President and Chief Internet Evangelist, 
  Google, Inc....................................................    77
    Prepared statement...........................................    79
    Answers to submitted questions...............................   117
Sally Shipman Wentworth, Senior Manager of Public Policy, 
  Internet Society...............................................    85
    Prepared statement...........................................    87

                           Submitted Material

House Concurrent Resolution --------, Expressing the sense of 
  Congress regarding actions to preserve and advance the 
  multistakeholder governance model under which the Internet has 
  thrived, submitted by Mr. Walden...............................     7
Article, dated May 24, 2012, ``Keep the Internet Open,'' by 
  Vinton Cerf, New York Times, submitted by Ms. Eshoo............    63


            INTERNATIONAL PROPOSALS TO REGULATE THE INTERNET

                              ----------                              


                         THURSDAY, MAY 31, 2012

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:21 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Terry, Stearns, 
Shimkus, Bono Mack, Blackburn, Bilbray, Bass, Gingrey, Scalise, 
Latta, Guthrie, Kinzinger, Upton (ex officio), Eshoo, Markey, 
Matsui, Barrow, Christensen, Dingell (ex officio), and Waxman 
(ex officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisor/Director of Coalitions; Mike Bloomquist, 
General Counsel; Sean Bonyun, Deputy Communications Director; 
Nicholas Degani, FCC Detailee; Andy Duberstein, Deputy Press 
Secretary; Neil Fried, Chief Counsel, Communications and 
Technology; Katie Novaria, Legislative Clerk; Andrew Powaleny, 
Deputy Press Secretary; David Redl, Counsel, Communications and 
Technology; Charlotte Savercool, Executive Assistant; Lyn 
Walker, Coordinator, Admin/Human Resources; Shawn Chang, 
Democratic Senior Counsel; Margaret McCarthy, Democratic 
Professional Staff; Roger Sherman, Democratic Chief Counsel; 
David Strickland, Democratic FCC Detailee; and Kara Van 
Stralen, Democratic Special Assistant.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning. I want to welcome our witnesses 
and appreciate their testimony today. This is the Subcommittee 
on Communications and Technology and our hearing on 
International Proposals to Regulate the Internet.
    Nations from across the globe will meet at a United Nations 
forum in Dubai at the end of this year and, if we are not 
vigilant, just might break the Internet by subjecting it to an 
international regulatory regime designed for old-fashioned 
telephone service.
    The Internet is the single largest engine of global change 
since the printing press. From its humble roots as a network to 
connect computers used for the Department of Defense projects, 
the Internet grew to include research institutions, commercial 
services, and the public generally. It was once the government 
relinquished its grip on the Internet that it began growing 
exponentially, evolving into the ``network of networks'' that 
we all participate in today.
    With this expansion came the recognition that the 
organizational structure must evolve as well. Functions that 
had previously been managed by and for the United States 
Government, like network addressing and domain name 
administration, were spun off to private-sector entities that 
could be more responsive to the rapid changes in the Internet. 
Nongovernmental institutions now manage the Internet's core 
functions with input from private- and public-sector 
participants. This structure, called the ``multi-stakeholder 
model,'' prevents governmental or non-governmental actors from 
controlling the design of the network or the content it 
carries. The multi-stakeholder model also provides flexibility, 
enabling the Internet to evolve quickly.
    And this evolution continues at a staggering pace. Cisco 
estimates that by 2016 roughly 45 percent of the world's 
population will be Internet users; there will be more than 18.9 
billion network connections; and the average speed of mobile 
broadband will be four times faster than it is today. Weakening 
the multi-stakeholder model threatens the Internet, harming its 
ability to spread prosperity and freedom.
    Yet this December at the World Conference on International 
Telecommunications (WCIT) in Dubai, the 193 member countries of 
the United Nation's International Telecommunications Union will 
consider expanding the ITU's jurisdiction to the Internet, 
replacing the multi-stakeholder model that has served the 
Internet and the world so well. They will also consider 
imposing economic regulations on the Internet.
    The ITU was originally formed in 1865 to govern 
international regulation of the telegraph. The ITU finally 
updated its charter in 1988 by adopting the International 
Telecommunications Regulations but, even then, the 
communications world was dominated by voice telephony. It was 
in that world the ITU developed ``settlement rates'' at which 
service providers compensated each other for exchanging phone 
traffic across national borders. Now, the end result was high 
international call rates and a transfer of money to telephone 
companies run by foreign governments.
    It would be inappropriate to apply an international 
regulatory scheme developed for the 1980s telephone networks to 
the vibrant and technologically diverse Internet. Such a 
regulatory regime ignores the reality of the architecture of 
the Internet. Unlike traditional telephony where the routing of 
circuit switched calls could easily be tracked, the networks 
that comprise the Internet do not adhere to political 
boundaries. Given the diversity of the networks that make up 
the modern Internet, any implementation of an international 
regulatory regime would quickly become so complex as to be 
unmanageable. We also live in a far more competitive world, 
making such economic regulation not only unnecessary, but also 
counterproductive.
    The Internet has prospered under the multi-stakeholder 
model absent the heavy hand of government regulation. That 
model has enabled an Internet that creates jobs, brings a 
literal world of information to your fingertips, allows small 
businesses around the world to have a global reach, drives 
investment and innovation, and has even started a revolution or 
two. As the U.S. delegation to the WCIT takes shape, I urge the 
administration to continue the United States' commitment to the 
Internet's collaborative governance structure and to reject 
international efforts to bring the Internet under government 
control.
    With that, I yield the remainder of my time to the vice 
chairman of the subcommittee, Mr. Terry of Nebraska.
    [The prepared statement of Mr. Walden follows:]


    [GRAPHIC] [TIFF OMITTED] 79558.001
    
    [GRAPHIC] [TIFF OMITTED] 79558.002
    
    [The House Concurrent Resolution follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.003
    
    [GRAPHIC] [TIFF OMITTED] 79558.004
    
    [GRAPHIC] [TIFF OMITTED] 79558.005
    
   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman.
    And I believe that the bottom-up stakeholder approach model 
has actually allowed economic development and prosperity in all 
levels of economy around the world. Therefore, when I hear 
comments from Prime Minister Vladimir Putin saying that 
international control over the Internet is one of the stated 
goals, we cannot allow this to happen. This will diminish 
economic prosperity.
    This conference is about telephone and should not encroach 
into any discussions into regulation of the Internet whether it 
is disguised by phone numbers or IP addresses or cybersecurity. 
So I want to put those on notice from Russia or from China or 
other countries that when it comes to regulating the Internet, 
the answer is nyet.
    Mr. Walden. Gentlemen's time is expired. I now recognize 
the distinguished ranking Democrat on the subcommittee, Ms. 
Eshoo, for 5 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good morning to 
everyone and thank you for having this important hearing.
    The Internet continues to grow and to flourish thanks to 
its open structure and its multi-stakeholder approach to 
governance. This is healthy. We have seen it. We have worked 
hard to make sure that these are the atmospherics for it. It is 
one of the great sources of pride to our Nation, the role that 
the government originally played, how it went out into the 
private sector, and it is one of the great success stories of 
American history. And I am very proud that so much of it 
resides in my district.
    According to a recent study commissioned by the New 
Democratic Network and the NPI, the New Policy Institute, every 
10 percent increase in the adoption of 3G and 4G wireless 
technologies has the potential to add more than 231,000 jobs to 
our national economy. So as the World Conference on 
International Communications prepares to meet later this year 
to review proposals that could actually radically alter the 
Internet's future, it is more than fitting for our subcommittee 
to convene this hearing to hear from some of our Nation's 
leading experts--and you are all a source of pride to us--from 
the public and private sectors.
    The Internet has advanced rapidly since WCIT last met about 
a quarter of a century ago. A quarter of a century ago. I guess 
they don't meet that often. We have gone from dial-up modems--
and maybe that is good--to high-speed Internet powered by fiber 
optics. With this dramatic boost in speed, consumers today can 
experience high-definition video, social networking, video 
conferencing, and much more without regard to where this 
content is hosted in the world. And I think that is the way it 
should be.
    There is no question that there are real threats facing the 
Internet's continued growth and stability. Our three 
cybersecurity hearings held earlier this year are evidence of 
such vulnerabilities. But international proposals to impose new 
mandated mobile roaming rates or termination charges for data 
traffic are a fundamental departure from the international 
telecommunication regulations adopted in 1988.
    Beyond just imposing new regulation on how Internet traffic 
is handled, several nations are set on asserting 
intergovernmental control over the Internet. Now, we have had 
some real battles here over the issue of net neutrality, and it 
seems to me that we are calling on the international community 
for hands off, an international net neutrality, as it were, 
when it comes to the Internet. Balkanizing the Internet would 
and could bring about censorship and make that the norm. In the 
words of Vint Cerf, who is here today, ``the decisions taken in 
Dubai in December have the potential to put government 
handcuffs on the net.''
    I think that we can all agree that the adoption of these 
proposals is a very serious threat to the free, transparent, 
and open Internet as we know it today. This is reflected in the 
bipartisan resolution that I join my colleagues in introducing 
yesterday. And today's hearing, along with a bipartisan 
congressional Internet caucus briefing, which I am cosponsoring 
next week, are an opportunity to discuss these issues and send 
a strong message that intergovernmental control over the 
Internet will uproot the innovation, openness, and transparency 
enjoyed by nearly 2.3 billion users around the world. And we 
want to keep it that way. We want that to double; we want it to 
quadruple; we want it to keep growing.
    And so it seems to me that what we discuss today is of 
great, great importance but I also think we need to inoculate 
other countries with the ideas that will help take them away 
from where they are now. I don't think this can be America 
against the rest of the world. I think we need to form 
coalitions around the ideas that have worked and that they, 
too, can share in what we know is one of the most exciting 
inventions and adventures of not only the last century but this 
one as well.
    And I think I have 1 second left so I don't have any time 
to yield to Ms. Matsui, and I apologize.
    Mr. Walden. The gentlelady's time is expired.
    I now recognize the chairman of the full committee, the 
gentleman from Michigan, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    The international community is going to meet in December to 
decide whether to regulate the Internet under rules designed 
for the 1980 era telephone networks. On the table is a proposal 
to expand the jurisdiction of the U.N.'s International 
Telecommunications Union to cover the Internet, moving away 
from the current multi-stakeholder governance model that has 
fostered the modern Internet. Also at issue is whether to 
impose rate regulation on the exchange of Internet traffic 
across national borders. Both of these are terrible ideas.
    In a time of economic uncertainty and turmoil, the Internet 
does remain a job creation engine that fosters innovation, 
brings the folks of the world together in new ways, and drives 
global discussion of important social matters. The Internet has 
become this economic and social juggernaut not because 
government actors willed it to be so but because the government 
took a step back and let the private sector drive its 
evolution. The non-regulatory, multi-stakeholder model allows 
the Internet community to guide its evolution and has provided 
the flexibility that the Internet needs to flourish as the 
demands placed on it grow.
    The ITU and the international ``settlement-of-rates'' 
regime were designed around old-fashioned telephone networks 
and services when there was less competition. The Internet is a 
different technology and this is a different era. International 
regulatory intrusion into the Internet would have disastrous 
results not just for the United States, but for folks around 
the world. So I would strongly urge the administration to 
continue U.S. support for the multi-stakeholder model in its 
talks leading up to the Dubai meeting this December.
    And I yield to the gentlelady from California, Mrs. Bono 
Mack.
    [The prepared statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.006
    
 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono Mack. I thank the chairman.
    As the U.S. prepares to take part in the World Conference 
on International Telecommunications in Dubai, we need to 
provide the delegation with a clear and unmistakable mandate: 
keep the Internet free of any government control. At the WCIT 
discussions, a new treaty on Internet governance will be 
debated.
    Most worrisome to me are efforts by some countries to 
provide the U.N. with unprecedented new authority over the 
management of the Internet. To prevent this from happening, I 
have introduced House Concurrent Resolution 127. I would like 
to thank my cosponsors, Chairman Upton, Ranking Member Waxman, 
Subcommittee Chairman Walden, and Ranking Subcommittee Member 
Eshoo for their strong support in this effort.
    In many ways, this is a referendum on the future of the 
Internet. For nearly a decade, the U.N. has been angling 
quietly to become the epicenter of Internet governance. A vote 
for our resolution is a vote to keep the Internet free from 
government control and to prevent Russia, China, and India, as 
well as other nations from succeeding in giving the U.N. 
unprecedented power over web content and infrastructure. If 
this power grab is successful, I am concerned that the next 
Arab Spring will instead become a Russia Winter where free 
speech is chilled, not encouraged, and the Internet becomes a 
wasteland of unfilled hopes, dreams, and opportunities. We 
simply cannot let that happen.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Walden. I now would recognize Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman.
    Following up with your comments and Chairman Upton about 
the monopoly from the 19th century, which we don't want to go 
back to, is there anybody in this room who thinks the United 
Nations could competently manage the Internet? Please raise 
your hands. I don't think there is anybody that does. In fact, 
I think all the witnesses will testify this morning that we 
must maintain the current multi-stakeholder decentralized 
approach. And this ITU, which is the International 
Telecommunication Union, it is a part of the United Nations and 
would require other countries to fund and build out the 
communication networks and give them full jurisdiction. And I 
again don't believe that we want to punt this to the U.N. These 
approaches constitute a frontal attack on the dynamic approach 
that we have presently.
    So I want to promote the unified, bipartisan message 
against international regulation of the Internet. That is why 
we are here today. And I want to emphasize today that such an 
approach that we see from others is a nonstarter for the United 
States. And I yield----
    Mr. Walden. I now recognize the gentlelady from Tennessee, 
Mrs. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And welcome to our witnesses. We are glad that you are here 
in this room, but I have no doubt that all around the world 
people are streaming this hearing because they want to see what 
our posture on this is going to be. And I think as you have 
heard that there is agreement, both sides of the aisle, that 
giving authority to an international governing body would put 
our Nation's sovereignty at risk. We are concerned about that 
and I think that the Obama administration should be commended 
for helping thwart this power grab. And I think we also need to 
realize that this is one of those areas where it raises the 
concerns we had about this administration's effort to undermine 
our efforts--Congress' efforts--in this developing fight 
against international regulatory schemes over the Internet 
because this administration moved forward with regulations over 
the management of Internet networks here in the United States.
    So we are going to continue to work to reign in the 
regulatory explosion of the FCC. Now is the time to execute a 
serious game plan that deals with those who would put 
international politics ahead of an open and prosperous 
Internet. We may have our differences on domestic 
telecommunications policy, but having those policies decided at 
the international level would be the worst thing that could 
happen for the future of the Internet.
    Again, welcome to everyone. I appreciate the time. Yield.
    Mr. Walden. The chair now recognizes the ranking member, 
Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for holding 
this hearing. It is an important hearing as we look down the 
road to an international conference where some of the 
proposals, if adopted, would fundamentally alter the way the 
Internet operates today, undermining the decentralized, multi-
stakeholder approach to Internet governance that has allowed 
the Internet to flourish and become such a powerful engine for 
social and economic progress.
    As we will hear from our witnesses today--and people can 
also sense from the opening statements--there is a strong 
bipartisan consensus throughout the administration and Congress 
that we must resist efforts by some countries to impose a top-
down command-and-control management regime on the Internet. 
This bipartisan consensus is reflected in H. Con. Res. 127, a 
resolution introduced yesterday by Chair Bono Mack and 
cosponsored by Chairman Upton, myself, Chairman Walden, and 
Ranking Member Eshoo. Simply put, this resolution affirms that 
Democrats and Republicans both want the administration to 
continue advancing our national commitment to the multi-
stakeholder model of Internet governance and a globally open 
Internet.
    We have two distinguished panels of witnesses today who 
have a long history of working on this issue. I want to welcome 
Ambassador Phil Verveer, who will be one of the 
administration's lead negotiator on the treaty known as the 
International Telecommunications Regulations at the World 
Conference on International Telecommunications in December. And 
I believe that Ambassador Verveer's experience in 
communications and antitrust law will serve the U.S. position 
well.
    And we are pleased to have Commissioner Rob McDowell back 
to our subcommittee. He has been focused on this issue for some 
time, expressing a strong leadership position and we are 
pleased to have him with us.
    Our second panel is also highly experienced. Former 
ambassador David Gross and Sally Wentworth both served the 
previous administration with distinction and have significant 
experience with information and communications technology 
sectors. And I want to welcome Vint Cerf. As one of the 
founders of the Internet, Dr. Cerf will be able to provide us 
with a unique perspective about how some of the proposals 
before the international meeting threaten the security and 
stability of the Internet.
    We all agree that the current and past administrations 
deserve credit for their efforts to ensure the Internet remains 
a tool for global dissemination of ideas, information, and 
commerce. There is no daylight between House Democrats and 
House Republicans or the administration on this issue.
    While we are largely focused on the upcoming World 
Conference, we should not lose sight of the fact that the push 
for more centralized control over the Internet is occurring 
through other international venues as well.
    Mr. Chairman, I want to yield the balance of my time to Ms. 
Matsui so she could give an opening statement.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Ranking Member, for yielding me 
time.
    And I also want to welcome Ambassador Verveer and 
Commissioner McDowell and the rest of the panelists for joining 
us today.
    As we know, in today's global economy with well over two 
billion users, the Internet has become a necessity and not a 
luxury. And that is why I believe that a free, transparent, and 
open Internet must continue. The current multi-stakeholder 
approach has allowed the Internet to flourish here in the U.S. 
and around the world. Any international authority over the 
Internet is troublesome, particularly if those efforts are 
being led by countries where censorship is the norm.
    I agree with many of our witnesses that it would harm 
efforts to combat cyber attacks, decrease adoption and 
innovation of the latest technologies, and interfere with many 
fundamental principles that allow the Internet to be an 
ecosystem for innovation and growth. I am also pleased that the 
administration understands these concerns and believes as such 
that an international mandated framework would simply not work.
    We need to continue to promote innovation and openness of 
the Internet around the globe. I believe that the multi-
stakeholder approach must continue to define Internet 
governance.
    And with that, I yield back the balance of my time.
    Mr. Waxman. I yield back my time.
    Mr. Walden. The gentleman yields back the balance of his 
time.
    So now I think we proceed to the witnesses. We are 
delighted to have you both here. And Ambassador Verveer, Deputy 
Assistant Secretary of State, and U.S. Coordinator for 
International Communications and Information Policy, we welcome 
you. And Commissioner Robert McDowell of the Federal 
Communications Commission, we welcome you back.
    Ambassador Verveer, thank you for being with us. We look 
forward to your testimony. Yes, pull that mike close and we 
will all be able to hear. You need to push the little button.

STATEMENTS OF PHILIP L. VERVEER, DEPUTY ASSISTANT SECRETARY OF 
STATE AND U.S. COORDINATOR FOR INTERNATIONAL COMMUNICATIONS AND 
    INFORMATION POLICY, DEPARTMENT OF STATE; AND ROBERT M. 
   MCDOWELL, COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

                 STATEMENT OF PHILIP L. VERVEER

    Mr. Verveer. Chairman Walden, Ranking Member Eshoo, and 
members of the subcommittee, thank you for this opportunity. I 
am particularly pleased to appear with my friend Commissioner 
Robert McDowell, and I am very happy that the subcommittee will 
hear later from my friend and distinguished predecessor 
Ambassador David Gross, from Sally Wentworth, who played a 
significant role in Internet governance matters during her 
service at the State Department, and of course from Vint Cerf 
without whom we might not have the Internet at all.
    Over the years, a relatively small number of governments 
have made proposals to change today's successful approach to 
Internet governance. Typically, these proposals involve the 
United Nations in one of its many manifestations, including the 
General Assembly, the Commission on Science and Technology for 
Development, and the International Telecommunication Union. The 
U.S. Government and others have successfully opposed these 
proposals but it is important to recognize that this will be a 
continuing debate.
    From the privatization of the Internet in the mid-1990s, 
the United States has been committed to a multi-stakeholder 
approach to its governance. That has been true from one 
administration to another. It represents a policy with 
thorough--it is not too strong to say unanimous--bipartisan 
support. The present Internet governance arrangements rely upon 
a collection of specialized institutions of which the Internet 
Society, ICANN, the IETF, and the World Wide Web Consortium are 
important examples. They are noteworthy for two things. The 
first is their expertise, inclusivity, and openness; the second 
is the remarkable success that they have achieved. This is one 
of the reasons we wish to preserve these institutions as the 
instruments of Internet governance. They work and they work 
remarkably well.
    There are two other reasons underlying our commitment to 
preventing the Internet from falling subject to 
intergovernmental controls. First, it inevitably would diminish 
the dynamism that is one of the Internet's greatest strengths. 
The existing arrangements permit the Internet to evolve 
organically in response to changes in technology, business 
practice, and consumer behavior. For reasons that cannot be 
overcome, intergovernmental controls would prevent this.
    Second, intergovernmental controls could be recruited in 
aid of censorship and repression. The United States is deeply 
committed to freedom of expression and the free flow of 
information. We appreciate that some nations, however, do not 
share these commitments. We particularly wish to preclude any 
developments that threaten to reduce Internet freedom that 
would impair freedom of expression, assembly, or association 
online.
    As an alternative to intergovernmental controls, the United 
States encourages governments to adopt multi-stakeholder, 
transparent, and decentralized approaches. Last year's high-
level ministerial meeting at the OECD both exemplified and 
codified this approach.
    Now, with respect to the World Conference on International 
Telecommunications, in December, representatives of 193 nations 
will gather in Dubai to consider revisions to the international 
telecommunications regulations. A year and more ago there was 
concern that the WCIT would be a battle over investing the IT 
with explicit Internet governance authority and that the 
conference participants would be confronting wholly new 
standalone draft text proposing Internet governance provisions.
    In response, the United States advanced the advantages of 
using the exiting ITRs as a basis for treaty negotiations. I am 
pleased to say that the majority of the ITU's members have 
agreed with us in this regard. The exiting ITRs have been 
accepted as a framework for negotiations. There are no pending 
proposals to vest the IT with direct Internet governance 
authority. Instead, thus far, traditional telecom issues such 
as roaming and fraud prevention have taken center stage.
    The State Department's preparations for the WCIT have been 
in progress for about 18 months. On an ongoing basis, we host 
the International Telecommunications Advisory Committee, or 
ITAC, a forum open to all interested parties to review and 
advise on the regional and national contributions to WCIT as 
they are submitted. Earlier this month, we established our core 
delegation consisting of U.S. Government officials. In 
September, we will complete the delegation with the addition of 
private sector members.
    Earlier this week, the President advised the Senate of his 
selection of Terry Kramer of California as the United States' 
Head of Delegation and of his intention to confer ambassadorial 
rank on Mr. Kramer in connection with this assignment.
    A great deal of preparatory work has been done but a great 
deal more remains to be done. In our work, the United States 
has the significant advantage of unanimity of purpose. We 
benefit from the fact that government officials of both 
parties, civil society, and the corporate sector all are 
committed to the preservation of the multi-stakeholder model 
and the resolution which was introduced this week and which has 
been mentioned today is a very important contribution to 
showing that unanimity.
    We look forward to continuing to work with the Congress as 
we approach the WCIT and other matters that involve Internet 
governance. I greatly appreciate the opportunity you are 
providing with this hearing to affirm the continuing value of 
our approach to Internet governance not just to U.S. citizens 
but to everyone in the world.
    I would be very pleased to respond to any questions you 
might have.
    [The prepared statement of Mr. Verveer follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.007
    
    [GRAPHIC] [TIFF OMITTED] 79558.008
    
    [GRAPHIC] [TIFF OMITTED] 79558.009
    
    [GRAPHIC] [TIFF OMITTED] 79558.010
    
    [GRAPHIC] [TIFF OMITTED] 79558.011
    
    [GRAPHIC] [TIFF OMITTED] 79558.012
    
    [GRAPHIC] [TIFF OMITTED] 79558.013
    
    [GRAPHIC] [TIFF OMITTED] 79558.014
    
    Mr. Walden. Thank you, Mr. Ambassador. We appreciate the 
work you put into your testimony and the work you are doing for 
the country.
    We turn now to Commissioner McDowell. We appreciate you 
being here and your loud and clear voice on this issue as well. 
And we welcome your son as well. Do you want to introduce your 
special assistant there today?

                STATEMENT OF ROBERT M. MCDOWELL

    Mr. McDowell. Yes, one of my many supervisors, Mr. 
Chairman, my oldest son Griffin who is 12. This is his first 
day of summer vacation but he wanted to see how his tax dollars 
were being spent.
    Mr. Walden. Wow, you brought him up here for that?
    Mr. McDowell. Yes, let us fill out a press conference after 
the hearing----
    Mr. Walden. That is right.
    Mr. McDowell [continuing]. And he will let us know what his 
conclusion is. But thank you very much, Mr. Chairman and 
Ranking Member Eshoo and all members of the subcommittee. It is 
a pleasure to be here today. It is also an extreme honor to be 
seated next to my friend and colleague, Ambassador Verveer, as 
well as right before the next panel good friends as well, 
Ambassador Gross, Dr. Cerf, and Ms. Wentworth as well. So they 
are going to be outstanding witnesses.
    First, please let me allow to dispense quickly and 
emphatically any doubts internationally about the bipartisan 
resolve of the United States to resist efforts to expand the 
ITU's authority over Internet matters. Some ITU officials have 
dismissed our concerns over this issue as mere election year 
politics and nothing could be further from the truth, as 
evidenced by Ambassador Verveer's testimony today, as well as 
recent statements from the White House, Executive Branch 
agencies, Democratic and Republican Members of Congress, and my 
friend and colleague at the FCC, Chairman Julius Genachowski. 
We are unified on the substantive arguments and always have 
been.
    Second, it is important to define the challenge before us. 
The threats are real and not imagined, although they admittedly 
sound like works of fictions at some times. For many years now, 
scores of countries led by China, Russia, Iran, Saudi Arabia, 
but many, many others have pushed for--as Vladimir Putin said 
almost a year ago--international control of the Internet 
through the ITU. Now, I have tried to find a more concise way 
to express this issue but I can't seem to improve on Mr. 
Putin's crystallization of the effort that has been afoot for 
quite some time. More importantly, I think we should take Mr. 
Putin's designs very seriously.
    Six months separate us from the renegotiation of the 1988 
treaty that led to insulating the Internet from economic and 
technical regulation. What proponents of Internet freedom do or 
don't do between now and then will determine the fate of the 
net and affect global economic growth as well as determine 
whether political liberty can proliferate.
    During the treaty negotiations, the most lethal threat to 
Internet freedom may not come from a full frontal assault but 
through insidious and seemingly innocuous expansions of 
intergovernmental powers. This subterranean effort is already 
underway. While influential ITU-member states have put forth 
proposals calling for overt legal expansions of United Nations' 
or ITU authority over the net, ITU officials have publicly 
declared that the ITU does not intend to regulate Internet 
governance while also saying that any regulations should be of 
the light-touch variety.
    But which is it? It is not possible to insulate the 
Internet from new rules while also establishing a light-touch 
regulatory regime. Either a new legal paradigm will emerge in 
December or it won't. The choice is binary.
    Additionally, as a threshold matter, it is curious that ITU 
officials have been opining on the outcome of the treaty 
negotiation. The ITU's member states determine the fate of any 
new rules, not ITU leadership or staff. I remain hopeful that 
the diplomatic process will not be subverted in this regard. As 
a matter of process and substance, patient and persistent 
incrementalism is the net's most dangerous enemy and 
incrementalism is the tactical hallmark of many countries that 
are pushing the pro-regulation agenda.
    Specifically, some ITU officials and member states have 
been discussing an alleged worldwide phone numbering crisis. It 
seems that the world may be running out of phone numbers of 
which the ITU does have some jurisdiction. Today, many phone 
numbers are used for voiceover Internet protocol services such 
as Skype or Google Voice. To function properly, the software 
supporting these services translate traditional phone numbers 
into IP or Internet addresses. The Russian Federation has 
proposed that the ITU be given jurisdiction over IP addresses 
to remedy the phone numbers shortage. What is left unsaid, 
however, is that potential ITU jurisdiction over IP addresses 
would enable it to regulate Internet services and devices with 
abandon. IP addresses are a fundamental and essential component 
to the inner workings of the net. Taking their administration 
away from the bottom-up, nongovernmental, multi-stakeholder 
model and placing it into the hands of international 
bureaucrats would be a grave mistake.
    Other efforts to expand the ITU's reach into the Internet 
are seemingly small but are tectonic in scope. Take, for 
example, the Arab States' submission from February that would 
change the rules' definition of ``telecommunications'' to 
include ``processing'' or computer functions. This change would 
essentially swallow the Internet's functions with only a tiny 
edit to existing rules.
    When ITU leadership claims that no member states have 
proposed absorbing Internet governance into the ITU or other 
intergovernmental entities, the Arab States' submission alone 
demonstrates that nothing could be further from the truth. An 
infinite number of avenues exist to accomplish the same goal 
and it is camouflaged subterfuge that proponents of Internet 
freedom should watch for most vigilantly for years to come.
    Other examples come from China. China would like to see the 
creation of a system whereby Internet users are registered 
using their IP addresses. In fact, last year, China teamed up 
with Russia, Tajikistan, and Uzbekistan to propose to the U.N. 
General Assembly that it create ``an international code of 
conduct for information security'' to ``mandate international 
norms and rules standardizing the behavior of countries 
concerning information and cyberspace.'' Now, does anyone here 
today believe that these countries proposals would encourage 
the continued proliferation of an open and freedom-enhancing 
Internet or would such constructs make it easier for 
authoritarian regimes to identify and silence political 
dissidents? These proposals may not technically be part of the 
WCIT negotiations, at least not yet, but they give a sense of 
where some of the ITU's member states would like to go.
    Still other proposals--very quickly--that have been made 
personally to me by foreign government officials include the 
creation of an international universal service fund of sorts 
whereby foreign--usually state-owned--telecom companies would 
use international mandates to charge certain web destinations 
on a per-click basis to fund the build-out of broadband 
infrastructure across the globe. Estimates of that start at 
$800 billion. Google, iTunes, Facebook, and Netflix are 
mentioned most often as prime sources of funding.
    In short and in conclusion, the U.S. and likeminded 
proponents of Internet freedom and prosperity across the globe 
should resist efforts to expand the powers of intergovernmental 
bodies over the Internet even in the smallest of ways. As my 
supplemental statement and analysis explains in more detail, 
such a scenario would be devastating to global economic 
activity as well as political freedom, but it would hurt the 
developing world the most.
    So thank you for the opportunity to appear before you today 
and I look forward to you questions.
    [The prepared statement of Mr. McDowell follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.015
    
    [GRAPHIC] [TIFF OMITTED] 79558.016
    
    [GRAPHIC] [TIFF OMITTED] 79558.017
    
    [GRAPHIC] [TIFF OMITTED] 79558.018
    
    [GRAPHIC] [TIFF OMITTED] 79558.019
    
    [GRAPHIC] [TIFF OMITTED] 79558.020
    
    [GRAPHIC] [TIFF OMITTED] 79558.021
    
    [GRAPHIC] [TIFF OMITTED] 79558.022
    
    [GRAPHIC] [TIFF OMITTED] 79558.023
    
    [GRAPHIC] [TIFF OMITTED] 79558.024
    
    [GRAPHIC] [TIFF OMITTED] 79558.025
    
    Mr. Walden. We appreciate your work in this matter and your 
testimony today before the subcommittee.
    Ambassador Verveer, in a blog post you wrote with Assistant 
Secretary of Commerce Lawrence Strickling and White House 
Deputy Chief Technology Officer Daniel Weitzner, you said the 
``centralized control over the Internet through a top-down 
government approach would put political dealmakers rather than 
innovators and experts in charge of the future of the Internet. 
This would slow the pace of innovation, hamper global economic 
development, and lead to an era of unprecedented control over 
what people can say and do online.'' Would you elaborate on 
that statement for us and then perhaps, Commissioner McDowell, 
you might make a comment or two as well.
    Mr. Verveer. That is right. I would be glad to, Mr. 
Chairman.
    Basically, the anxiety that we have about top-down 
arrangements involves both the economic performance of the 
Internet if you will in terms of its dynamism, in terms of its 
ability to react to opportunities that technology changes 
present and business models present, changes in consumer 
behavior might present. We also are very concerned about 
whether or not top-down intergovernmental controls would aid in 
censorship or repression; that is would aid any particular 
country that is concerned about the content that comes into its 
country that crosses its borders, whether or not these kinds of 
changes might permit it to claim that it is entitled to the aid 
of other countries in terms of preventing unwanted content.
    So we believe that both for reasons of economics but also 
for reasons of the broader political, cultural, social value of 
the Internet, it ought to be kept operating as it is today.
    Mr. Walden. Mr. McDowell, any comment?
    Mr. McDowell. I agree. I thought, by the way, the joint 
blog post by the Department of Commerce, Ambassador Verveer and 
Danny Weitzner in the White House was excellent. I can't really 
improve upon his answer, but as I said in my opening remarks, 
it is a grave threat.
    Mr. Walden. Commissioner, according to Communications Daily 
today, Gigi Sohn from Public Knowledge has said that ``we have 
to be a little careful not to hold up multi-stakeholderism as a 
coin.'' Ultimately, the U.S. Government has to serve as a 
backstop to these efforts, and it is government's role to make 
the decisions and enforce the principles that are developed. Do 
you agree that it is it government's role to make the decisions 
about how the Internet operates and to enforce them?
    Mr. McDowell. I can't speak for Ms. Sohn but to answer your 
question directly, no, I think we need to reinforce the multi-
stakeholder model in the absence of stakeholder action.
    Mr. Walden. Ambassador Verveer?
    Mr. Verveer. Yes, I think we agree once again that we want 
very much to keep the multi-stakeholder model as the front and 
center basis on which we engage in Internet governance.
    Mr. Walden. And it seems like, Commissioner McDowell and 
Ambassador, that aren't many of the proposals before WCIT 
attempts to regulate the Internet as if it is the old-fashioned 
telephone service? It certainly feels like that to some of us.
    Mr. McDowell. Yes, and then some perhaps with the 
regulation of content and applications as well, which would go 
well beyond the old phone service regulation of yore.
    Mr. Verveer. I guess I would add it is important to 
understand that the contributions that come in are things that 
have the kinds of implications in many instances that 
Commissioner McDowell mentioned in his testimony. But a lot of 
them are probably also motivated or principally motivated by an 
effort to preserve or reinstate the kinds of arrangements that 
existed under the days of voice-grade international telephone 
service. And these are possibly in many instances sincerely 
presented not intending anything anymore than that. For the 
reasons the Commissioner mentioned, these are probably also 
mistaken in terms of efforts to find new approaches to 
regulation.
    Mr. Walden. And in fact I thought your testimony was very 
well done and raises some of these points just how insidious 
they can be and yet look as if they are not problem-creating. 
What do you see as the most troubling small changes if you will 
that have been proposed?
    Mr. McDowell. Well, certainly, the Arab States' proposal is 
very troubling. A small definitional change maybe hoping no one 
would notice that all of a sudden swallows the Internet but 
expands the ITU's jurisdiction tremendously. Again, it could be 
something that comes through the phone numbering issue or some 
other issue. I mean it seems almost every week there is a new 
issue or a new angle or a new front that has opened up, a new 
argument that is tested. So it could be any number.
    Mr. Walden. All right. I have no further questions.
    With that, I will turn over now to ranking member of the 
subcommittee, Ms. Eshoo, for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman.
    And Ambassador Verveer and Commissioner McDowell, thank you 
not only for being here but for your very strong, knowledgeable 
voices and advocates on this issue as well.
    Ambassador Verveer, you have mentioned in your testimony 
that many other governments have joined with the United States 
in pursuing an outcome that would limit the ITU's involvement 
in Internet governance. Can you tell us what the extent of this 
collaboration is and how are these other governments working 
with the U.S. to achieve this goal? Because it seems to me that 
we have a lot of people, a lot of countries, states, nation-
states that are--let me put it in a more positive way--don't 
share our view of the Internet and how it operates and how it 
should continue to operate. So how is our coalition doing and 
can you do a little bit of a dive on telling us where you think 
we are with other countries, which is so important?
    And then, I would like Commissioner McDowell, maybe you can 
give us a WCIT 101. How many are going to vote? Is there a time 
frame around this? Is it discussion that begins this year and 
extends for the next 24 years? The last time they met was 
almost a quarter of a century ago. So maybe some already know; 
I am not so sure I understand how the ITU actually is going to 
work when we show up. So if you could handle that one. But let 
us go to Ambassador Verveer first.
    Mr. Verveer. Yes, Representative Eshoo, the principle 
activities to this date in terms of preparation for the 
conference are being undertaken in regional groupings of which 
there are six. Our regional grouping of the Americas involves 
something called CTEL. The Europeans operate under something 
called CEPT, and in the Asia-Pacific area, there is the Asia-
Pacific Telecommunity, among other places. I think it is a fair 
summary that in those three regions you have a largely 
consistent set of views about how we should proceed. That is to 
say that we don't want to see the treaty conference become the 
occasion for any kind of intergovernmental control of the 
Internet.
    Now, we will, in our preparations, with the leadership of 
our new head of delegation, Terry Kramer, we will engage in a 
great many bilateral discussions as well. By kind of analogy, 
in a recently concluded World Radio Conference, our head of 
delegation and our deputy head of delegation Dick Beaird 
engaged in about 50 bilateral discussions leading up to the 
conference itself. So we are very actively engaged in 
discussions with friends and with those who may have different 
opinions, and that is going to continue on right up to the 
conference itself.
    Ms. Eshoo. Where would you say we are? Is there still a 
split? Is there a consensus that comes around more our view 
than other views on this of the regions that you just 
mentioned?
    Mr. Verveer. Yes, I think one way to describe the state of 
the activities at this point would be to think of this 
conference as potentially having involved two tracks. The first 
track would have been an effort at direct regulation of the 
Internet----
    Ms. Eshoo. Um-hum.
    Mr. Verveer [continuing]. Something that was a source of 
concern a year and more ago but I think is less a source of 
concern now. The only really direct effort that I am aware of 
to accomplish that was a proposal by the Russian Federation to 
create an entirely new framework for the negotiation of 
entirely new regulations.
    Ms. Eshoo. Um-hum.
    Mr. Verveer. That effort has been turned back I think 
successfully.
    Ms. Eshoo. That is very good news. I want to get to 
Commissioner McDowell, thank you.
    Mr. McDowell. Sure. When it comes to the process, I will 
actually leave that to the Department of State. The Department 
of State actually takes the lead as a treaty negotiation. We 
play a supporting role----
    Ms. Eshoo. So how many are on our team? Are they votes? Is 
it 40, 50 people?
    Mr. McDowell. Well, there are 193 member states of the ITU.
    Ms. Eshoo. Um-hum.
    Mr. McDowell. They each have one vote. There is no veto 
power so it doesn't matter how many people live in your 
country; you have the same vote as the tiniest of countries. 
And the idea of every 24 years----
    Ms. Eshoo. Sort of like the Senate.
    Mr. McDowell. I will stay out of the bicameral----
    Ms. Eshoo. I know. I know.
    Mr. McDowell. But the idea of every 24 years on the one 
hand is accurate; on the other hand, this is actually almost an 
annual issue. There is some other conference, you know, that is 
almost every year if not several conferences per year. So the 
ITU has many difference conferences, for instance, the World 
Radio Communications Conference that the Ambassador talked 
about was this past January and February. But we need to look 
beyond this December. I want to make sure the committee and 
everybody listening understands that it is not just about this 
December. This is just the latest vignette in this drama. We 
have to remain vigilant for years to come. There will be more 
meetings, more possibilities for treaty negotiations in 2013, 
'14, '15, and on out.
    Ms. Eshoo. Thank you.
    Mr. Terry [presiding]. Thank you. I recognize myself for 
questions. Mr. Upton was supposed to be next but since he is 
not here, I will take his time.
    Mr., or is it Ambassador----
    Mr. Verveer. Either is fine.
    Mr. Terry [continuing]. Verveer, trying to get more up to 
speed on this. I am concerned about the Secretary-General Toure 
and his relationships with Russia and Vladimir Putin and then 
couple that relationship with Putin's comments where he is very 
blunt about his desires to regulate the Internet and take 
control of the Internet. So I ask you is that an unfounded 
concern or fear that I have? When the Secretary General of the 
ITU has this relationship, is it unfounded? Is this 
relationship a concern? What steps are we taking to be able to 
counterbalance that relationship?
    Mr. Verveer. Well, my view is that the Secretary General is 
in fact a very effective and honorable international civil 
servant elected to this position and then reelected unanimously 
the last go-around. So he is very well respected. He has been 
very effective and I don't personally have any serious 
misgivings about his ability to be fair, to be helpful in terms 
of helping to see that the conference and the ongoing 
activities that Commissioner McDowell mentioned take place.
    He is a man who has a very strong and personal connection 
with the United States. He lived here for 12 years working for 
Intelsat.
    Mr. Terry. He has family here?
    Mr. Verveer. Two of his children are U.S. citizens and I 
believe resident here. And so I think he exemplifies, I 
believe, a very decent international civil servant in what is a 
very important and frankly very complicated job. He has to 
attend to the legitimate needs and requirements of the United 
States but also of the Russian Federation, of China, and every 
other of the 193 countries in the world. But I don't think we 
need to have anxieties about his integrity.
    Mr. Terry. All right. I wasn't questioning his integrity 
but that maybe his beliefs were close to what Prime Minister 
Putin has expressed. And so, Mr. McDowell, do you have any 
concerns or fears about the relationship----
    Mr. McDowell. I think what is more----
    Mr. Terry [continuing]. And whether that puts us behind the 
eight ball so to speak?
    Mr. McDowell. I will take Ambassador Verveer's analysis, of 
course, at face value. He is much more an expert on that than I 
am. But what is more important than looking at his background I 
think is looking at his public statements on these issues, many 
of which I have cited in my testimony and other things----
    Mr. Terry. Good point.
    Mr. McDowell [continuing]. And I think when you read them, 
they speak for themselves.
    Mr. Terry. Yes. And that is concerning.
    I don't know, Ambassador Verveer, soon-to-be Ambassador 
Kramer, will you walk through your level of confidence in Mr. 
Kramer and what preparations he should be taking to make sure 
that we draw a hard line?
    Mr. Verveer. Sure. Mr. Kramer is a retired senior executive 
who had worked very extensively particularly in the wireless 
business. His career involved very significantly service 
initially in Pacific Telesis which then spun off its wireless 
business into a company called AirTouch, which eventually was 
acquired by Vodafone. Mr. Kramer, during almost all of this 
time, then, followed the progression of the company and the 
assets as they were sold. He spent a good many years of his 
career as a senior executive for Vodafone. He spent about 5 
years, as I understand it, in the United Kingdom and in the 
Netherlands involved in Vodafone's extensive international 
activities. He has been a member of the Executive Committee of 
the GSM Association, which is the largest international 
wireless association, has spent some time since his retirement 
teaching at Harvard at the Harvard Business School, and he is 
about to undertake, I believe, teaching assignments at UCLA at 
the business school there.
    He is a man of very considerable experience, then, in the 
international communications arena. I think it will prove to be 
something that is very, very valuable from our point of view. 
There will be a learning curve. We are embarking now in terms 
of helping him with that----
    Mr. Terry. My time is expired but I am worried about or 
concerned about whether the learning curve that we in the few 
months before December conference--and I will let somebody else 
ask that question.
    So at this time I recognize Mr. Markey.
    Mr. Markey. I thank the gentleman. Back in January, Sir Tim 
Berners-Lee, the inventor of the World Wide Web, urged us to 
``make sure the Web itself is a blank sheet, the blank canvas, 
something that does not constrain the innovation that is around 
the corner.'' The wonderful thing about the Internet, Sir Tim 
also reminded us, is that no one needs to ask permission to 
innovate, to get their voice heard, to launch a new service or 
a new business enterprise. That is the magic of the Internet. 
The Internet is the most level playing field for commercial 
opportunity ever invented. It is the most successful 
communication and commercial medium in history. It is the 
lifeblood of the world economy.
    Now, last week, Vint Cerf, who is going to testify on the 
second panel and was hired by Bolt Beranek and Newman along 
with several others, back in the late 1960s, to develop packets 
which network that eventually became known as the Internet, he 
wrote just last Thursday in the New York Times, ``the decisions 
taken in Dubai in December have the potential to put government 
handcuffs on the net.'' To prevent that and keep the Internet 
open and free for the next generation, we need to prevent a 
fundamental shift in how the Internet is governed.
    Do you think that can happen in Dubai, Ambassador Verveer?
    Mr. Verveer. I think it could happen but I think it is very 
unlikely to happen. And one of the reasons it is very unlikely 
to happen is many of the countries of the world are very alert 
to the kinds of concerns that Sir Tim mentioned in the hearing 
in 2007. The Internet is enormously valuable to everyone in the 
world and I think it is a fair surmise that almost all of the 
countries of the world are going to be very anxious not to do 
anything that might damage it. And, of course, that is a large 
part of the effort we have been and will continue to make is to 
point out that there are things that could damage it.
    Mr. Markey. What is the motivation in your opinion behind 
what China or Russia might seek to accomplish if they were 
successful in what they had been proposing?
    Mr. Verveer. Both of those countries have a concept that 
they call information security. And their concept of 
information security is both what we would call cybersecurity--
that is a physical protection of their networks--but it goes 
beyond that to address content that they regard as unwanted. 
And I think as much as anything else, at the base, the 
motivations that Russia and China have involve regime stability 
and regime preservation which for them involves preventing 
unwanted content from being made widely available in their 
country.
    Mr. Markey. And Commissioner McDowell, how do you view this 
threat from China and Russia and others that seek to retain 
regime stability and can only really pursue it through an 
international control of the Internet?
    Mr. McDowell. For those countries that are offering such 
ideas that are authoritarian like the ones you cite, I don't 
think it is too stark to say their vision of the Internet is to 
have a tyrannical walled garden. But I think there are a 
variety of motivations throughout the 193 member states who 
might find a number of things appealing. It might be purely 
economic, state-owned, telephone companies charging web 
destinations on a per-click basis, things of that nature that 
might be an economic incentive. But for the Chinas and Russias 
and other authoritarian regimes----
    Mr. Markey. Um-hum.
    Mr. McDowell [continuing]. I think it is to snuff out 
political dissent.
    Mr. Markey. We actually had to have a hearing here in 1987 
when the Federal Communications Commission was actually 
considering a proposal that would have per-minute charges up on 
the corner of the screen on the Internet rather than an all-
you-can-eat kind of proposal, which we are glad we beat that 
back back in 1987 so that we could have this chaotic, 
uncontrollable system that ultimately developed.
    So Mr. Ambassador, are you gratified by the response you 
are receiving from other countries in their alignment with the 
United States in resisting these proposals coming from 
totalitarian states?
    Mr. Verveer. Well, by and large, we are gratified by the 
responses that we have seen. We find that a significant number 
of our allies have been prepared to step up to also oppose what 
we regard as fundamentally bad ideas. And I am very confident 
that as we have the opportunity over the next 6 months to 
continue these discussions that we are likely to end up with 
what we all find to be adequate----
    Mr. Markey. Are these countries joining us because of 
pressure from the United States or because they agree with us 
that the Internet should retain this chaotic nature?
    Mr. Verveer. Well, I think in very many instances they do 
agree with us, that they see the value of the Internet as a 
mechanism for economic and broader improvements.
    Mr. Markey. Do you want to list the few countries that 
agree with us?
    Mr. Verveer. Surely. We find that we get a good deal of 
support from Japan in terms of activities in the Asia-Pacific 
Telecommunity. We find that we are getting a good deal of 
support from not only Canada and Mexico but other countries in 
our hemisphere in terms of some proposals that we make. Many of 
the European countries are very well aligned with us in terms 
of the issues and values that we think are most important in 
terms of preserving. So we see, I think, very substantial 
support for the kind of broad views that we have about the 
Internet, which is again not to say that this is fully 
resolved. There is a great deal more work that needs to be done 
both in connection with this conference and then probably into 
the indefinite future.
    Mr. Markey. OK. Congratulations to the Obama administration 
on their excellent work on this.
    Mr. Terry. Mr. Stearns, you are recognized for 5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Ambassador, with these 193 countries meeting in Dubai, 
Mr. Markey touched upon and the question was how many support 
us? How many votes are we short on having the majority to 
support our position exactly?
    Mr. Verveer. Well, I don't think we have a count. It is 
very important to understand----
    Mr. Stearns. You don't have a count on it? You don't know?
    Mr. Verveer. We don't have----
    Mr. Stearns. We have a whip here that really knows before 
any votes are taken what is happening. You know, I get a little 
concerned that you don't even know. I understand that we are 
about nine votes short but you think that is an accurate 
representation?
    Mr. Verveer. No. I don't----
    Mr. Stearns. Is it more?
    Mr. Verveer. If I could explain?
    Mr. Stearns. Sure. Sure.
    Mr. Verveer. The conference will follow the ITU traditions 
which involve avoiding votes. The conference will operate on 
the basis of a----
    Mr. Stearns. So there will never be a vote? If you don't 
mind, I would like you to answer yes or no if possible just 
because I don't have a lot of time. Will there be a vote in 
Dubai on this by these 193 countries? Yes or no?
    Mr. Verveer. I think it is very unlikely.
    Mr. Stearns. So there will be no vote. So we don't have to 
worry about who is for us and who is against us?
    Mr. Verveer. We do have to worry about that because the----
    Mr. Stearns. OK.
    Mr. Verveer. First, it is important to understand there are 
going to be many different contributions that are going to be 
discussed----
    Mr. Stearns. I understand. Do they work on the basis of a 
consensus? In other words, they have this sort of silent 
consensus and they move forward without a vote? Is that what 
happens?
    Mr. Verveer. That is in fact what happens.
    Mr. Stearns. So there will be a vote but it will be a vote 
sort of secretly through a consensus, and based upon that, a 
report will be written and that report will be issued and that 
will be the hard fall answer to the Dubai conference. Would 
that be a fair estimation what is going to happen?
    Mr. Verveer. Yes. What will happen is there will be 
negotiations over individual proposals in terms of the 
international telecommunications regulations. Those 
negotiations will yield presumably some agreement on words and 
phrases in terms of the regulations----
    Mr. Stearns. I understand.
    Mr. Verveer [continuing]. Or agreement not to change them.
    Mr. Stearns. OK, just so we as legislators have an 
understanding, can you give me today how many votes we are 
short of a consensus?
    Mr. Verveer. I cannot tell you----
    Mr. Stearns. Ten votes short, 100 votes short? I mean can't 
you just give me a broad brush?
    Mr. Verveer. I am sorry to say----
    Mr. Stearns. OK.
    Mr. Verveer [continuing]. I think it is impossible to 
answer that----
    Mr. Stearns. Mr. McDowell----
    Mr. Verveer [continuing]. Question.
    Mr. Stearns [continuing]. Any comments you want to say on 
this? In fact, you might suggest what as a legislator I and my 
fellow colleagues could do here based upon this evolving 
consensus where it appears we are nine votes short?
    Mr. McDowell. Well, actually, I think also going back to 
the dialogue with Congressman Markey, it is important that this 
not be an issue of the United States versus----
    Mr. Stearns. I agree.
    Mr. McDowell [continuing]. The rest of the world.
    Mr. Stearns. I agree.
    Mr. McDowell. I think we need to cultivate allies in the 
developing world. They have the most to gain from an unfettered 
Internet and the most to lose if this goes forward. So that is 
where I think we need to be whipping up the votes, to use your 
term.
    Mr. Stearns. OK. Is there anything that the FCC is doing 
right now that would impact this ITU?
    Mr. McDowell. Yes, we have an International Bureau that 
works on this and works closely with the State Department----
    Mr. Stearns. OK.
    Mr. McDowell [continuing]. And they are busy working with 
member states throughout the world.
    Mr. Stearns. Commissioner McDowell, you mentioned in your 
extended testimony the potential outcome of a balkanized 
Internet if pro-regulation nations are successful in December. 
Could you perhaps expand on this? And what would be the 
consequences for the United States and other countries?
    Mr. McDowell. I am sure whether it is December or sometime 
in the future. And I, by the way, would like to suggest to the 
committee that maybe we do a post-WCIT hearing at some point 
maybe early next year to see how things went and what is going 
to happen in the future.
    But what I mean by a balkanized Internet would be are there 
going to be countries that would opt out of the current multi-
stakeholder model and choose this top-down regulatory regime, 
in which case, you know, the Internet is a network of networks 
without borders and it would really create an engineering 
morass. At a minimum this would create chaos and confusion and 
economic uncertainty. That always leads to increased costs. 
Increased costs are always passed on to end-user consumers. So 
that is at a minimum. So at a maximum we would see a wilting of 
the proliferation of political freedom and prosperity abroad, 
and we would also I think see innovation be snuffed out in the 
cradle and we will never know what innovations might not have 
come to fruition.
    The great thing about the Internet is just, you know, 
access to a computer and an Internet connection in order to 
create the next great idea, whether that is the next Facebook. 
But that could come from the developing world.
    Mr. Stearns. Mr. Ambassador, besides Russia and China, what 
are the other top three or four countries that want to put this 
under the U.N. auspices?
    Mr. Verveer. Well, we see substantial efforts on the part 
of Iran to do that.
    Mr. Stearns. OK.
    Mr. Verveer. There are certain Arab States that----
    Mr. Stearns. Can you name the Arab States?
    Mr. Verveer. Pardon me?
    Mr. Stearns. Can you name the Arab States?
    Mr. Verveer. Well----
    Mr. Stearns. Egypt?
    Mr. Verveer. Egypt has certainly taken some----
    Mr. Stearns. Position?
    Mr. Verveer. But not complete steps in that direction. 
There have been efforts as well----
    Mr. Stearns. Tunisia?
    Mr. Verveer. I don't believe I would put Tunisia in----
    Mr. Stearns. Saudi Arabia?
    Mr. Verveer [continuing]. That category. Saudi Arabia, 
again, as with Egypt, has from time to time taken steps or 
taken positions that----
    Mr. Stearns. Would it be fair to say that most of the mid-
East countries other than Israel is supporting this? Is that a 
fair statement?
    Mr. Verveer. We see support after a fashion I suppose from 
some of the Arab States, yes, but I think the thing that is 
critically important to understand is that in terms of 
genuinely hard-line opponents to the arrangements as we see 
them today, that they tend to be states that we have already 
mentioned. That otherwise there are subtleties and nuances that 
are substantial in terms of----
    Mr. Stearns. Got you. All right. My time is expired. I 
thank you, Mr. Chairman.
    It is just an odd coincidence or ironic that with the Arab 
Spring that a lot of these countries seem to want to put it 
into a monopoly type of U.N. operation. Thank you.
    Mr. Terry. Thank you, Mr. Stearns.
    The gentlelady from California, Ms. Matsui, is recognized 
for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    Ambassador Verveer, I want to talk more about the WCIT. You 
mentioned that the ITRs have not been revised since 1988, which 
is about 25 years ago and a lot has happened in 25 years. The 
comparison is even worse than the Tortoise and the Hare. It is 
more like we are at warp speed right now. And why did the ITU 
decide to reexamine the ITRs now? And do you anticipate that 
they will want to examine them again shortly? I mean is there a 
schedule to do this?
    Mr. Verveer. First, I think it is important to understand 
that there has been pressure to reexamine the ITRs that has 
existed for many, many years. The United States has taken the 
view over the years that it wasn't really necessary to do this, 
but finally, in 2006, an overall decision was made that it 
would happen this year. The idea behind that I think more than 
any other is something that has been made plain at this 
hearing, which is that the world has changed so dramatically 
that it seemed like it was time to review the ITRs. Now, that 
said, the ITRs themselves, which are only nine pages long, in 
fact do have a great many things that continue to be of value 
that could and should be preserved.
    There is no schedule beyond this upcoming conference to 
revisit the ITRs on any regular basis. There have been some 
contributions or proposals that suggest that that might be 
valuable, but I think generally--again, this is not something 
that has achieved a great deal of momentum.
    Ms. Matsui. Well, once discussion begins as it has and the 
countries, because of recent history, have become involved in 
the Internet and seen the positives as well as the negatives as 
far as some of the countries that really look towards 
censorship, isn't it possible this will be a continuing process 
and we should be on alert now that this collaboration must 
continue because, as we know, technology just keeps rapidly 
expanding and we are not sure exactly what the next big thing 
is.
    So is there an opportunity--and I suppose it is a multi-
stakeholder process--to open it up more, this ITU process, to 
more stakeholders, to nongovernmental stakeholders, which I 
believe that Dr. Cerf has spoken about? Do you agree on that 
and how can the U.S. Government advocate for greater 
transparency in this process since that to me is sort of a 
stumbling block for some of the other countries?
    Mr. Verveer. Well, it is certainly true, I think, that 
there has been criticism--and I think it is legitimate 
criticism--about the ability of the nonmembers of the ITU to be 
aware of the deliberations, be aware of what is taking place in 
terms of preparation for this conference and more broadly. We 
are prepared through the ITU Council and good efforts of Dick 
Beaird, who has been our representative on the Council for 
many, many years, to propose to the Council that its report, 
which is going to be a very important document in the scheme of 
things, that its report in preparation for the WCIT be 
generally available. It would be very useful if we can find 
more ways--this is a point the United States often makes--to 
have more of the ITU's documents more widely available to all 
of the interested stakeholders.
    Ms. Matsui. I would think--and this is a question for both 
Ambassador Verveer and Commissioner McDowell--that there should 
be more opening of the process for increase of knowledge here 
even in the United States as to the importance of this. We in 
this country tend to take the Internet for granted and, you 
know, we see what has happened with the Arab Spring and realize 
how it has affected other countries.
    I think that to a great degree we forget that what would 
happen if, let us say, the worst happened, this scenario, and 
that things would close down. I am curious what would happen if 
the worst happened here? What would happen here in this 
country? Would those resolutions immediately become law? What 
steps can the U.S. take to limit its participation in the 
treaty? You know, I kind of want to know what would happen. And 
either of you can answer that and both of you in fact.
    Mr. Verveer. This is a very important point that you have 
raised and I am glad you have. First, it is conventional and 
assured we will take a very broad reservation from whatever is 
agreed at the conference. And virtually every other country 
will do the same thing. So you will have countries agreeing 
that they will abide by the provisions of the treaty unless for 
some reason they won't. And as I said, typically, the reasons 
will be extraordinarily broad. That is one thing.
    The second thing it is very important to understand is 
there is no enforcement mechanism associated with this. These 
are precatory as many, many other aspects of international law 
are so that it is not reasonable to assume that if something 
really ruinous for some reason came and was to be adopted as a 
particular regulation that you would see countries against 
their interest enforcing that regulation as only the countries 
would be able to enforce. There is no other way for it to be 
done.
    So this conference and all these activities are 
extraordinarily important in terms of establishing norms, in 
terms of establishing expectations, in terms of trying to help 
with respect to both the commercial activities and the free 
flow of information. But they are very, very different from a 
law that the Congress, for example, might adopt that would be 
subject to all the juridical enforcement mechanisms that are 
available.
    Ms. Matsui. I am running out of time, but Commissioner 
McDowell, do you have any comments? Can you add to this?
    Mr. McDowell. I don't think I could say it any better than 
he could in the observance of time so----
    Ms. Matsui. OK. Thank you very much, both of you.
    Mr. Terry. The other gentlelady from Southern California, 
Mary Bono Mack.
    Mrs. Bono Mack. Thank you.
    Thank you both for your testimony. You certainly didn't 
mince words. There is no doubt that you feel strongly. And what 
I like is that I agree with everything you have said. It is 
hard to question witnesses when you are just trying to make 
them agree with you more than they already do, but I will do my 
best and just try to get out of you a little bit of 
explanation. I think as Ms. Matsui was just saying, a bigger 
explanation for the American people what is at stake here, I 
started talking about this well over a year ago and people have 
sort of viewed me as having a tinfoil hat on my head and was 
creating an issue that wasn't very real. But if you could talk 
a little bit about we clearly understand the Arab Spring and 
what this means and that the Internet is the biggest tool for 
freedom around the world that mankind has ever seen. So taking 
that aside instead can you talk a little bit about the 
proposal, how it would impact U.S. business and what it means 
for the bottom line for business should this occur? To both of 
you.
    Mr. McDowell. Sure. And thank you, Congresswoman, for your 
leadership on this issue. In the early days there were a lot of 
folks who questioned whether or not this was real and I am glad 
you stuck your neck out and thank you for your leadership.
    At a minimum, it creates uncertainty and drives up costs 
and that alone can be damaging. Let us take an example. So 
Harvard and MIT recently announced they are going to offer 
courses online for free. The concept of free content or 
applications on the net could be put at risk if costs are 
raised. Ultimately, consumers pay for those costs one way or 
the other. They always pay for increased costs due to 
regulation. So, you know, at a maximum, then, you would have 
some sort of bifurcated Internet, cross-border technology such 
as cloud computing, which is becoming essential to creating 
efficiencies and bringing more value to consumers and raising 
living standards ultimately. That could be jeopardized as it 
becomes harder to figure out how do you engineer these 
technologies across borders when in the past the Internet 
didn't have to worry about that as much. So that gives you a 
flavor.
    Mrs. Bono Mack. Thank you.
    Ambassador, do you----
    Mr. Verveer. Well, I certainly would agree with the 
commissioner on that I think it is perfectly fair to observe 
that the free flow of information, including the free flow of 
commercial information, is something that has added--as the 
studies have been cited this morning--indicate has added 
measurably to the world's wealth. So we are very anxious that 
there not be anything that would inhibit that.
    There have, for example, been some suggestions made by some 
countries that we ought to have a kind of per-click charge if 
you will that content providers ought to contribute to the cost 
of transmission companies for concluding traffic. There are a 
variety of reasons why that seems to us not to be a good idea 
at all, but you can see what could turn out to be marginal 
imposition on the Internet would in fact interfere with the 
commercial value of it and we are very anxious to avoid that.
    Mrs. Bono Mack. Thank you, Ambassador. And would you speak 
a little bit--in your testimony you mentioned that there are 
proposals under consideration at WCIT that would allow 
governments to restrict content and monitor Internet users. Can 
you speak a little bit about how the U.S. is working now to 
prevent countries from already censoring the Internet?
    Mr. Verveer. Well, we are very anxious, as you might 
imagine, to overcome any suggestions that there ought to be 
content-related restrictions. With the suggestions of this kind 
come, again, as Commissioner McDowell indicated in his 
testimony, not just or not even especially in the context of 
WCIT but in other forums as well, and they tend to come from 
countries that have--I suppose it is easy to say non-democratic 
traditions. And as a result, on the one hand, we are dealing 
with what are almost certainly sincere beliefs on the part of 
the political elites that stability is very important, that 
there are in fact objectionable--either from a political 
perspective or other cultural perspectives--there is such a 
thing as material so objectionable it ought to be excluded. 
That said, we obviously disagree with that and we particularly 
disagree with it when we are talking about what we might 
describe as political speech. But this set of issues arises 
more extensively in, for example, the kind of suggestion that 
Russia, China, Uzbekistan, and Tajikistan had made in the 
context of the United Nations.
    Mrs. Bono Mack. I thank you. And my time is up. Again, I 
just want to thank you both very much for your hard work on 
this issue and for being here today.
    I yield back.
    Mr. Terry. Thank you, Mary, and I want to thank you for 
your good effort on your resolution, that bipartisan----
    Mrs. Bono Mack. I look good in a tinfoil hat.
    Mr. Terry. Well, this time it was legitimate and necessary 
and I am proud of the work that you have done with Henry Waxman 
and Ms. Eshoo to make it a bipartisan. We are all in agreement 
on this one.
    Mr. Dingell?
    Mr. Dingell. Thank you, Mr. Chairman. I appreciate your 
courtesy.
    First, I would like to welcome my old friend, Ambassador 
Verveer, who is a friend and resource to this committee. He was 
bureau chief of the three bureaus at the FCC back in the '70s 
and served the Department of Justice before that. Mr. 
Ambassador, welcome, and I look forward to our exchange.
    And, of course, Commissioner McDowell, we appreciate your 
service and thank you for being here this morning. Your wise 
counsel has been helpful to me on many occasions.
    Now, to both witnesses, this is a yes-or-no answer. Is it 
true that some members of the ITU may propose revisions in the 
ITRs that set out prescriptive and international regulations 
for issues such as Internet privacy and cybersecurity? Yes or 
no?
    Mr. Verveer. The answer is yes.
    Mr. McDowell. Yes.
    Mr. Dingell. To both witnesses, do you believe that it is 
wise for the United States to concede to international 
standards on Internet matters not settled definitively? That is 
privacy and cybersecurity by the Congress? Yes or no?
    Mr. Verveer. It is unwise for us to get too far in front of 
the overall consensus.
    Mr. Dingell. You find that to be a bit rushing things, is 
that right?
    Mr. Verveer. I now can't recall if this should be a yes or 
a no but it would be a bad idea.
    Mr. Dingell. I don't like to do that but we have a lot of 
ground to cover.
    Commissioner?
    Mr. McDowell. Unwise.
    Mr. Dingell. Now, again, to both of our witnesses, I 
understand that some of the countries like Russia and China 
believe that ``policy authority for Internet-related public 
issues is the sovereign rights of States and not multi-
stakeholders.'' Is that correct? Yes or no?
    Mr. Verveer. Yes, that's correct.
    Mr. Dingell. Commissioner?
    Mr. McDowell. That is their position? Is that the question?
    Mr. Dingell. Yes, is that their position?
    Mr. McDowell. Because I understand their position, yes.
    Mr. Dingell. Do you agree with that position?
    Mr. Verveer. No, we don't.
    Mr. McDowell. No.
    Mr. Dingell. Now, in your collective opinion is it wise to 
maintain international multi-stakeholder regulatory process 
that more closely resembles the Administrative Procedure Act 
model that we use in the United States as opposed to what China 
and Russia propose? Yes or no?
    Mr. Verveer. Yes.
    Mr. Dingell. Commissioner?
    Mr. McDowell. If I understand the question correctly, I 
would not want a legal paradigm put in place of the multi-
stakeholder model. So there are some words in there which I am 
not sure I understand completely so I want to make that point 
clear.
    Mr. Dingell. Thank you, gentlemen. It looks like we are in 
agreement, then, on these matters.
    Now, since you are both here I would like to ask you about 
an unrelated matter. I know you are both aware that the 
President has signed legislation that permits the FCC to 
conduct an incentive auction in which television broadcasters 
can elect to return their licenses in return for a portion of 
the auction revenues. That legislation includes the amendment 
offered by Mr. Bilbray and I directing the FCC to coordinate 
with Canadian and Mexican authorities so that consumers and 
particularly those in border regions won't lose access to 
television signals when the incentive auction is over. Now, Mr. 
Ambassador, would you please bring the subcommittee up to speed 
on where things stand with Canada and Mexico with respect to 
this very important matter, particularly so to my constituents, 
particularly as there are no additional frequencies available 
for displaced stations in my hometown of Detroit if the 
television ban is repacked? I have to ask you to be brief on 
this and perhaps maybe you would want to submit some additional 
comments to the record. Mr. Ambassador?
    Mr. Verveer. Well, Mr. Dingell, there are treaty 
obligations that we have with Canada that are designed to 
protect the broadcasters on both sides of the border. This is a 
problem not just in the area of Detroit but also in New York 
State in addition----
    Mr. Dingell. Also in Washington, Montana, along the borders 
of Minnesota and Oregon and other places, too.
    Mr. Verveer. And likewise on the Mexican border. These are 
things that have to be worked out and have to be worked out by 
agreement between the two countries. But in addition, as you 
mention, there is a legislative mandate that no one be 
disadvantaged if they choose to continue to broadcast. So this 
is going to be a complicated engineering matter. It may or may 
not be something that will permit any particular changes in the 
status of all the border regions, but both the treaty and the 
statutory obligations obviously will be observed.
    Mr. Dingell. Now, Commissioner McDowell, you are working on 
this at the Commission I know. Can you assure me of the 
Commission's commitment to full transparency on this matter? 
Yes or no?
    Mr. McDowell. Yes, from my office. I can't speak for the 
chairman or the other commissioner.
    Mr. Dingell. I am comfortable that you would engage in full 
transparency. I am a little less comfortable about some of the 
other folks down at the Commission. I recognize, Commissioner, 
that you speak for yourself. Are you comfortable that everybody 
else at the Commission shares your goodwill on this matter?
    Mr. McDowell. I certainly hope so, sir.
    Mr. Dingell. I do, too. I am a little bit like the fellow 
that was walking down the street and ask him, are you an 
optimist or a pessimist? And he said, I am an optimist. And 
then he said, well, why are you frowning? He said, because I am 
not sure my optimism is justified.
    Thank you, Mr. Chairman.
    Mr. Terry. Nice one. All right. Thank you, Mr. Dingell.
    And now we recognize the gentlelady from Tennessee for 5 
minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And again, I thank you all for being here.
    Mr. Ambassador, a couple of questions for you. When was the 
last time that the State Department published a notice of an 
official meeting to prepare for the WCIT '12?
    Mr. Verveer. You know, I am not sure when we did. We 
understand that we have an obligation to publish notices in 
connection with what we call our ITAC meetings so that----
    Mrs. Blackburn. OK.
    Mr. Verveer [continuing]. Anyone----
    Mrs. Blackburn. Well, let me help you out with that a 
little bit because the last notice that I could find was 
January 11. That was the last public notice. But from what I 
have been able to find out is that the State Department is 
holding regular meetings of interested stakeholders on a 
regular basis and you have done this all year long to prepare 
for the conference. Isn't that correct?
    Mr. Verveer. That is correct.
    Mrs. Blackburn. OK. And is your staff holding regular 
conference calls and managing a LISTSERV for stakeholders to 
circulate position papers and ideas to inform the U.S. 
delegation in advance of the WCIT '12 preparatory meetings?
    Mr. Verveer. Yes, that is also correct.
    Mrs. Blackburn. That is correct? OK. So first of all, how 
do you get on the LISTSERV so that you are aware of what is 
going on? And then secondly, how can my constituents that are 
not just the largest and the wealthiest companies on the 
Internet or the intellectual elites participate in the process 
if there is no way for them to know how to participate in that 
process or when the meetings are going to take place or how to 
get involved? How do we advise them on this?
    Mr. Verveer. Well, first, you are obviously raising a very 
legitimate, very important question. The notices that were 
made--and my recollection of the advice we got from the lawyers 
at the State Department was that we could provide a kind of 
general notice as a legal matter for these regular meetings. It 
is very easy to get on the LISTSERV but you have to know who to 
contact. And if that is something that is obscure from the 
standpoint of the public record, we will correct that. But 
anyone who wishes to be on the LISTSERV certainly can----
    Mrs. Blackburn. Well, I would like to make certain that we 
take care of this because this was going to be the most 
transparent administration in history and here we get to an 
issue that is very important to a lot of my constituents and 
they feel blocked out of this process.
    Commissioner McDowell, I appreciate that you have been an 
outspoken critic of WCIT '12 and appreciate your efforts. Let 
me ask you this: you have been to Nashville, we have done a 
town hall there in Nashville, you know that I have got a lot of 
constituents that want to participate in this process, and you 
know that they are very concerned about what international 
control of the Internet would do to them and do to their 
livelihoods. So, you know, how do we go about this if the FCC 
doesn't have an open docket for comments? Don't you think that 
that would be a good idea to have an open docket that these 
individuals, these small business operators would be invited 
into for comment? And, you know, I know that at one point there 
was one but there doesn't seem to be now. So I think early 2010 
there was an open docket. So tell me how we go about fixing 
this?
    Mr. McDowell. The best vehicle for that would be something 
called a Notice of Inquiry that the FCC could open up on----
    Mrs. Blackburn. OK.
    Mr. McDowell [continuing]. What the FCC should be doing in 
support of the State Department's taking the lead on WCIT '12.
    Mrs. Blackburn. OK. That sounds good. And let me ask you 
this: you know, one of the things as I looked at this issue 
with the docket, one of the things that concerns me is if the 
FCC still does have an open proceeding to reclassify the 
Internet services of Title II, telecom service. And so tell me 
this: how is that open proceeding different from the proposals 
in front of the ITU? And shouldn't we close that docket 
immediately?
    Mr. McDowell. Yes, we should. I have been very public about 
that for many years, as well as the original net neutrality 
proceeding, I think it sends the wrong signal internationally 
and I think it should be closed as soon as possible.
    Mrs. Blackburn. OK. Thank you for that.
    Mr. McDowell. Thank you.
    Mrs. Blackburn. My time is expired and I thank you for the 
time and the questions.
    Mr. Terry. Thank you.
    Gentlelady from the Virgin Islands.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And I, too, want to welcome both the commissioner and the 
ambassador and thank you for your testimonies. And it is really 
great to have such bipartisan support on this important issue. 
So I want to thank the chairman and ranking member for having 
this hearing as we approach the WCIT.
    I am not sure that all the questions that needed to be 
asked have not been asked, but as my colleague usually says, 
not everyone has asked them. But some have suggested that there 
is need for greater transparency and accountability in the IT 
process. Do you agree? And if you do think that there is a need 
for greater transparency, can it be accomplished without 
regulation that hampers the free and open access to the 
Internet?
    Mr. Verveer. Well, if I understood your question correctly 
about the desirability of greater transparency, generally in 
the ITU process, the answer I think from our point of view is, 
yes, that would be desirable. And we have recommended various 
measures along those lines over the years and have seen some of 
them come to fruition, some not. There are steps that we can 
and we do take here in the U.S. to try to aid non-ITU members 
to understand what is going on there in terms of making 
materials available that are available to us as a member of the 
ITU. And as I mentioned earlier, we are proposing in the 
specific instance of WCIT that the Council report, which will 
be the critical document or one of the most critical documents 
going forward, should be made public once it is in fact issued 
following council working group session in the next several 
weeks.
    Mrs. Christensen. Commissioner, do you have anything to add 
or----
    Mr. McDowell. I have nothing further to add other than to 
say I have heard time and time again from civil society, think 
tanks, efficacy groups, and such that they are very concerned 
about the opaque nature of the ITU. The ITU generates revenue 
from having civil society groups, non-member voting states join 
the ITU for I think about $35,000 or the equivalent thereof and 
that is a way of generating money for the ITU and then you can 
get certain documents. I have found it difficult actually even 
for my office to get some ITU documents. You kind of have to 
know somebody and I am part of the U.S. Government the last 
time I checked. So I do think this is something the ITU needs 
to work on and I have every faith in Ambassador Verveer and the 
incoming ambassador for the WCIT to address that issue.
    Mrs. Christensen. I guess as a follow-up to what you just 
said, there are also some recommendations that are brought up I 
think in some of the testimony from the second panel that the 
ITU should have some nongovernmental voting members. Is that 
something that you would agree should happen? And if not, there 
must be a way for them to have some significant way of 
participating in the discussion.
    Mr. Verveer. Well, the ITU follows the general U.N. model 
of having nation-states as the voting members. This is 
essentially the architecture that the Greatest Generation 
worked out for us. And there are opportunities to try to find 
greater roles for non-nation-state participants. There are 
other forms of membership in the ITU that are nonvoting that 
permit a good deal of participation. But in fact I think a 
legitimate objective to find better ways to make the ITU's 
work--and this is also true of many of the other U.N. 
organizations--more available, more accessible, and more 
participatory in terms of non-nation states who may be involved 
may be interested.
    Mrs. Christensen. And, Commissioner, you talk about the 
light touch, a proposal, but it is possible to have any kind of 
a light touch regulatory regime without threatening into that 
freedom? I mean that is not possible.
    Mr. McDowell. No.
    Mrs. Christensen. That is just another way of getting into 
a slippery slope, isn't it?
    Mr. McDowell. It is a sales pitch for a much bigger 
problem. There is no way to have both.
    Mrs. Christensen. Thank you.
    I yield back the balance.
    Mr. Walden. The gentlelady yields back the balance of her 
time.
    The chair now recognizes the gentleman from California, Mr. 
Bilbray, for 5.
    Mr. Bilbray. Gentlemen, just a general question. I am sure 
somebody else has already asked it but, you know, as we say 
that everything has been said, just not everybody said it.
    What can Congress do to help with the negotiations with 
other countries to ensure a strong position that the Internet 
remain free and open without the harmful international 
regulations stifling it? What can we do in Congress to help 
with the effort? And what must we do?
    Mr. Verveer. I think the resolution that was adopted or was 
promulgated in the last day or two is one very important 
possibility and it is one that where the more adherence it has 
here, the better, the clearer it becomes that the United States 
is completely unified on this particular set of issues.
    Secondly, I think this hearing itself is something that is 
very valuable because it provides a very plain demonstration 
that we in the United States are unified across our political 
lines. And that I think is an important message for the world, 
and I can assure you, the world does pay very close attention 
to what we do in these areas.
    We will hope to have an opportunity toward the end of this 
month to introduce our new head of delegation to members and 
staff who are interested in speaking with him. We will at that 
time I think be able to also provide sort of a sense of some of 
what we think are the needs that we have in terms of going 
forward, preparing for the conference and participating in the 
conference.
    Mr. McDowell. I would agree with everything the ambassador 
said. I think Congress could help by helping us clarify our 
position that not even the smallest change should be allowed 
but also following up on the WCIT and having another sort of 
checkup hearing maybe after the 1st of the year because there 
will be many more similar circumstances coming forward in the 
years to come.
    Mr. Bilbray. You know, I personally spent a lot of time in 
Latin America working on certain problems they have down there 
and one of the great opportunities we see not just in Latin 
America but around the world and Third World countries is being 
able to use the Internet to help bridge the gap between those 
in the rural area can't go to secondary school, get the 
education. A lot of the things we take for granted rural people 
don't have access to. And it is absolutely essential that the 
Internet is available and that broadband is available to bridge 
that education gap in Third World countries.
    A question is some of these countries are looking at the 
International Telecommunication Union as part of the solution 
on that. How should we respond to their legitimate concerns and 
how do we coordinate to make sure that that moves forward? 
Because this probably does more to help Third World countries 
in long-term economic and social progress than a lot of other 
stuff that we have spent trillions of dollars on.
    Mr. Verveer. The ITU has a development sector. We 
participate in it quite extensively and we think it is very 
valuable in terms of collecting and disseminating best 
practices in terms of capacity building, things of that nature. 
It also has RegionalConnect, a particular region and the 
Connect America's Regional Conference will occur in Panama in 
the middle of July. It is one that the U.S. will certainly 
participate in and it is again designed to try to address the 
kinds of issues that you have described. So it is a very 
valuable instrument in terms of accumulating and then 
disseminating important information about the kinds of broad 
social issues that you have just addressed.
    Mr. McDowell. I think the best hope actually is the growth 
of wireless. Wireless Internet access has been explosive. The 
growth there has been tremendous and that is primarily because 
governments have stayed out of the way, as in this country as 
well. So I think we need to let the market work and encourage 
other countries to try to get out of the way as much as 
possible because the mobile Internet is really the future for 
improving the human condition overall.
    Mr. Bilbray. Well, and I think as much as they can learn 
from maybe our approaches at distance learning, Mr. Chairman, 
maybe we ought to be looking at the great successes that are 
being developed in places like Panama and Latin America where 
the private sector is building actually the infrastructure in a 
telecommunication way that actually surpasses even activity of 
countries like Costa Rica that has had hard-line technology for 
so long and the great opportunities that is providing for the 
education of people in Third World countries.
    So I yield back, Mr. Chairman. I appreciate the time.
    Mr. Walden. The gentleman yields back his time. The chair 
now recognizes the gentleman from New Hampshire, Mr. Bass.
    Mr. Bass. Thank you very much, Mr. Chairman.
    And again a lot of the issues and questions that I have 
have already been addressed by other members of the committee 
and I would say that this has been very helpful and 
informative. Both Ambassador Verveer and Commissioner McDowell 
have enlightened us as to exactly how this process works and 
what the consequences are should there be an implementation of 
at least a partial top-down regulatory structure for the 
Internet if you will. And your comments, Commissioner McDowell, 
about an engineering morass and economic uncertainty and I 
guess a sort of dark and dismal specter for economic freedom 
over the Internet is very apt. And hopefully the many other 
nations, as others have said, especially Third World nations, 
understand the consequences of this given the fact that the 
structure of this deliberate body is relatively democratic and 
these Third World nations have quite a bit of power.
    Commissioner McDowell, you published an op-ed recently in 
the Wall Street Journal in which you mentioned the Internet has 
helped farmers find buyers for crops. I can give you many 
examples of small industries in my neck of the woods in New 
Hampshire that have created whole new economies that didn't 
exist before by using the Internet. And I am wondering if you 
can speak a little bit about how the multi-stakeholder model 
helps small businesses and how the international regulations, 
if they went into effect, would hinder them.
    Mr. McDowell. Well, as many people have said already, it 
allows innovation without permission, so when you combine the 
liberty that comes with mobility, when you combine the 
invention of mobility for Marty Cooper, with the invention from 
Vint Cerf and Bob Kahn of packet switching and the power of the 
Internet, you really fundamentally change the human condition I 
think more so than any other invention that I can think of, 
maybe since fire. And I am trying not to be hyperbolic.
    So you are not just contacting a place or a thing; you are 
able to communicate with a person and that does more to empower 
the sovereignty of the individual than any other technology 
that I can think of. So you do have farmers who can find buyers 
for their crops without having to take on the risks of 
traveling to the village, to the market where they could lose 
their crops or they could be stolen or the buyer might not show 
up so they can take care of that transaction. Worried parents 
can find medicine for their sick children. They can locate 
potable water--which is actually a huge global concern right 
now--much more easily through the power of the mobile Internet.
    Mr. Bass. And for both of you, isn't the multi-stakeholder 
design governance model if you will really unique in that it 
prevents government entities and nongovernmental entities for 
that matter from controlling the design of the network and 
thereby the content that rides over it. Do you agree with that 
or do you have any comment or elaboration on that?
    Mr. Verveer. Well, I think generally we think that this has 
in fact been enormously instrumental in creating the Internet 
that we have today. And we are very anxious that the free flow 
of information, the freedom of expression remains as a 
centerpiece in terms of one of the many capabilities of the 
Internet. And the multi-stakeholder model tends to help protect 
that because it does bring all voices to the table. It is a 
kind of ethic in which no one set of voices is especially 
privileged and we think that probably does help in terms of 
this what you might think of is a broader political/social/
cultural aspects of the Internet.
    Mr. Bass. Thank you. I just conclude on a personal note, 
Commissioner McDowell. My father had the honor of serving in 
this body when I was about the age of your son, who is sitting 
behind you, and I remember well going to a Science--it was 
called the Space Committee in those days. He was a member of 
the Science and Technology--it was the greatest committee you 
could be on in the Congress because it was in the middle of the 
Space Race--being so excited that here I was in this great 
place and they went through this hearing and I didn't 
understand a single word of what was said. But when I got out I 
told all my friends that I knew all kinds of things now about 
where we were going in space. So Griffin, I expect you to brief 
your dad on this hearing, make sure he is set straight and 
knows where we are headed.
    Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Bass. We appreciate that.
    I am going to recognize the gentlewoman from the Virgin 
Islands.
    Mrs. Christensen. Thank you, Mr. Chairman. I ask unanimous 
consent on behalf of Ranking Member Eshoo to insert the New 
York Times editorial by Vinton Cerf into the record.
    Mr. Walden. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.026
    
    [GRAPHIC] [TIFF OMITTED] 79558.027
    
    [GRAPHIC] [TIFF OMITTED] 79558.028
    
    Mr. Walden. The chair now recognizes the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman. And Mr. 
Ambassador and Mr. Commissioner, thanks very much for your 
testimony today. It is very enlightening. And now everyone not 
only in this body but I think across the Nation truly believes 
that we want to make sure that keep our Internet free and away 
from more regulations. And it is best to have been developed 
the way it has from the ground up, from private industry and 
without government regulation.
    If I could, Mr. Commissioner, I would just like to ask a 
couple questions briefly because I think I would like to go 
back. I know there has been a lot of question as to businesses 
and business regulation, what could happen out there.
    But the chairman has conducted hearings on cybersecurity 
that have been, you know, very insightful for everyone here, 
but, you know, in your testimony on page three when you are 
talking about the Russian Federation, you know, asking for 
jurisdiction over IP addresses because ``there is a remedy to 
phone number shortages'' or that the Chinese would like to see 
the creation of a system whereby Internet users are registered 
using their IP addresses. And I think, you know, you end up 
that in a lot of totalitarian type regimes, that would give 
those authoritarian regimes the ability to identify and silence 
political dissidents.
    But how would you look at those two areas that might give 
those countries or other countries some kind of an advantage 
on, you know, attacking the United States or gaining more 
intellectual property that is being stolen over the net today? 
Because, again, the more that is out there that these companies 
have to submit of themselves to other countries, you know, it 
is hard enough right now to protect what we got. So if you 
could just answer that, I would appreciate it.
    Mr. McDowell. I think the general theme with that and also 
just looking at history at other analogies, it would be a 
scenario where they might want the rest of the world to live 
under a set of rules that they then break. In other words, they 
would break the rules and everyone else would abide by them, 
and that would be to their advantage.
    Mr. Latta. Mr. Ambassador, do you have a follow-up on that?
    Mr. Verveer. Well, the general issue that I think that you 
have raised about the question of protection of intellectual 
property, for example, is one that is a very, very serious one. 
It is one that we at the State Department work at very hard. It 
is one that the administration works at very hard through the 
office of Victoria Espinel in the White House. These are issues 
that obviously are complex in terms of figuring out appropriate 
enforcement modes and so forth, but there is certainly no 
debate about the importance of intellectual property protection 
in the broader context of the Internet. It is something that is 
very important.
    Mr. Latta. Thank you.
    And Mr. Commissioner, it hasn't really been brought up very 
much today that you brought up in your testimony about that 
some foreign government officials have intimated to you about 
maybe having international universal service fund whereby 
foreign usually state-owned telecom companies would have an 
international mandate to charge certain web destinations on a 
per-click basis so they could build out on broadband. You know, 
with so many companies here in the United States having spent 
hundreds of millions of dollars to do that, would that then put 
U.S. companies at a disadvantage, especially since you would be 
looking at a lot of the companies in this country having to 
really finance that?
    Mr. McDowell. Well, I think you have to look at which web 
destinations attract the most traffic so it might be a YouTube 
or an iTunes or Netflix is expanding internationally as well, 
especially the video applications use a lot of bandwidth. And 
the point here is that there might be international sanction or 
international mandate for some sort of regulatory regime to 
impose these charges and that is a concern. If companies want 
to enter into contracts in a competitive market, I am all for 
that but we don't need an international regulatory body 
distorting the marketplace to anyone's disadvantage.
    Mr. Latta. Thank you very much, Mr. Chairman. And I yield 
back my time.
    Mr. Walden. The chair now recognizes the gentleman from 
Illinois, Mr. Shimkus, who I think is our last one to ask 
questions of this panel.
    Mr. Shimkus. Thank you, Mr. Chairman. And I apologize for 
obviously keeping this longer, but it is a very important 
subject and it is very important if you have ever been involved 
as I have been fortunate to be involved with democracy and 
freedom movements, at least in the former captive nations, 
Eastern European countries. I pulled up with great technology 
the cyber attack on Estonia in 2007. Just returned from the 
NATO Parliamentary Assembly meetings in Estonia just over the 
break, I have watched the crackdown on dissidents in Belarus. 
And, Commissioner McDowell, you are highlighting the prime 
minister of Russia's exact quote. International control of the 
Internet through the ITU should give everyone cause for 
concern. Those of us who follow these movements are rightly 
concerned about--as was stated in maybe question-and-answer or 
opening statement--the movement to do this is for regime 
stability and regime preservation. I mean it is clear. Look at 
the actors--Russia, China, Iran, I imagine North Korea would 
probably be on there if they really had any concern of anyone 
having computers to begin with other than the handful that they 
allow for downloading movies. I am not going to go there.
    And briefly talk about will they be using--I will go first 
to the Ambassador and then Commissioner McDowell--the whole 
cybersecurity date, is this linked into this somehow and they 
are using cybersecurity as an excuse to get further control? 
And of that we should be concerned with, especially from state 
actors who have used technology to cyber attack other 
countries. They would be the last defenders of the system. 
Ambassador, do you want to comment on that?
    Mr. Verveer. Yes. Well, in the specific context of WCIT 
there have been contributions suggesting there ought to be some 
sort of a cybersecurity regulation. Now, the discussions have 
tended to be at a very high level. For example, something like 
all countries should be responsible for protecting their 
networks, things of that nature. The United States generally 
opposes any significant effort to bring cybersecurity 
regulation into the ITU or similar bodies. There are, as you 
know, enormously significant issues surrounding cybersecurity. 
There is a great deal of engagement that we in the United 
States have with other countries about how to improve the 
cybersecurity environment but we don't think that apart from 
potentially very high level kind of statement about the 
desirability of cybersecurity that it has any place at all in 
terms of these ITRs.
    Mr. Shimkus. Great. Commissioner McDowell, any comment on 
that?
    Mr. McDowell. Yes, my concern overall is that such 
international mandates could be used as a sword and a shield by 
authoritarian regimes at the same time. Keep in mind, though, 
that cybersecurity is discussed in many diplomatic for a not 
just WCIT or ITU but other places as well. But as a general 
matter, we should be very concerned that before entering into 
any international agreements on this that we aren't put at a 
disadvantage.
    Mr. Shimkus. And I don't know if Congresswoman Bono Mack 
mentioned this. We were talking before I had to leave the room. 
But the process would be consensus agreement. Would those then 
have to go back to the national governments for like a treaty 
ratification as we see in other treaties like Kyoto--not to 
pick on it--but some countries picked it up; some countries 
like the United States never voted on it. I think that is the 
issue of balkanization, then, that you are referring to. But 
wouldn't that disenfranchise those countries that think they 
are trying to use it for their own regime stability and regime 
preservation but it would really hurt them in the global 
economy and developmental process? So they are cutting off 
their nose to spite their face if they do this. Ambassador, 
would you agree with that?
    Mr. Verveer. Yes, I would. You are exactly right with that.
    Mr. McDowell. I would agree with it as well.
    Mr. Shimkus. Great. Thank you, Mr. Chairman. I yield back 
my time.
    Mr. Walden. Thank you, Mr. Shimkus. We appreciate your 
questions and we appreciate the answers and the testimony from 
our two very distinguished panelists. Thank you. You have been 
most helpful in us understanding better what we face as a 
country and the challenge that is ahead for both of you and for 
our delegation going to Dubai. So thank you. We appreciate it.
    And we will call up our next panel of witnesses. On our 
second panel, Ambassador David A. Gross, former U.S. 
Coordinator for International Communications and Information 
Policy, U.S. Department of State on behalf of the World 
Conference on International Telecommunications Ad Hoc Working 
Group; Ms. Sally Shipman Wentworth, she is the senior manager, 
public policy for Internet Society; and Mr. Vinton Cerf, Vice 
President and Chief Internet Evangelist for Google. We all 
admire that title and your work, Mr. Cerf, certainly the power 
it is to have Internet protocols and addresses and all those 
things you have created or help create. And we love the title, 
Internet evangelist.
    So again we thank our prior panel and their testimony and 
we will start right in with Ambassador Gross will be our 
leadoff witness on the second panel. And again, just pull those 
microphones close, make sure the lights are lit and you should 
be good to go. Thank you, Ambassador, for your work on this 
issue in the past and we look forward to your comments today.

   STATEMENTS OF DAVID A. GROSS, FORMER U.S. COORDINATOR FOR 
INTERNATIONAL COMMUNICATIONS AND INFORMATION POLICY, DEPARTMENT 
 OF STATE, ON BEHALF OF THE WORLD CONFERENCE ON INTERNATIONAL 
  TELECOMMUNICATIONS AD HOC WORKING GROUP; VINTON CERF, VICE 
  PRESIDENT AND CHIEF INTERNET EVANGELIST, GOOGLE, INC.; AND 
   SALLY SHIPMAN WENTWORTH, SENIOR MANAGER OF PUBLIC POLICY, 
                        INTERNET SOCIETY

                  STATEMENT OF DAVID A. GROSS

    Mr. Gross. Well, thank you very much, Mr. Chairman, Ranking 
Member. It is a great privilege and honor to be back here with 
you all again. I appreciate it very much. And I probably should 
start with an apology to the audience that I did not bring 
lunch with us. So I will try to be brief.
    I want to underscore a couple of points that were made both 
by the questions and the answers presented by the first panel. 
First of all, I think it is extraordinarily important for the 
American people to know that I think the preparations for the 
upcoming WCIT conference are in excellent hands. I think we 
have seen this demonstrated by the statements and actions by 
Ambassador Verveer, who you saw this morning, by Assistant 
Secretary Larry Strickling, by the White House, including Danny 
Weitzner, who has played an important role, and as was 
announced earlier today by Ambassador Verveer, the incoming 
Head of Delegation Terry Kramer.
    I will confess I have known Terry for many years. We worked 
together at AirTouch. We have been good friends for many years 
and I could not be more pleased and confident of a successful 
outcome because of what I am sure will be his excellent 
leadership. I would say that his leadership is particularly 
important and helpful in addressing some of the questions that 
were raised to the first panel about the ability to create and 
form successful coalitions to be able to identify the issues. 
He has great experience not only in the telephone industry but 
also having worked and been very active internationally. He 
knows what it takes to bring people together and to be able to 
find that consensus that will be very important.
    I would also want to recognize, of course, as you all have 
already done this morning, the extraordinary work that has been 
done by FCC Commissioner Robert McDowell. He has been tireless 
and passionate and very focused on this issue in ways that have 
greatly served all of us. And I personally and professionally 
am so pleased by his leadership to date.
    Having had the great honor of working on these issues for 
many years at the U.S. State Department and elsewhere, I think 
there are a few core principles that make this particularly 
important, one that was stressed earlier today about the 
importance of bipartisanship. And I would like to commend both 
sides of the aisle and this committee particularly and its 
members for the great work that you have done with regard to 
the new Resolution 127. I think that is really quite 
extraordinary.
    When I had the honor of co-leading the U.S. delegation to 
the World Summit on the Information Society, the U.N. heads of 
state summit, a similar joint resolution was enacted and I 
found that to be extraordinarily useful and important for us as 
we went forward because the world recognizes the importance in 
the role that Congress plays on these issues domestically and 
internationally and it is an important signal. The 
bipartisanship is a particularly important signal there that 
these are issues for which we are all together.
    I would also say that I have the great honor currently of 
chairing an ad hoc committee that has been put together to 
address the WCIT issues and the like, and I think there is much 
to be learned from the diverse membership of that group. That 
group often takes different views on domestic issues and that 
is to be expected, but they come together and are unified, as 
the American people I believe are unified, on the issue that 
brings us together about the Internet, the importance of the 
Internet, and the role of intergovernmental organizations and 
others with regard to that going forward.
    There are two things that I think are particularly 
important to focus on about WCIT. One is it is important to 
remember this is not just another conference but this is a 
treaty-writing conference. The output of this will not be just 
language that is used but in fact international law, and 
therefore, it is very, very important that the details be dealt 
with very carefully.
    It is also very important because this affects not just the 
American people but people globally and the U.S. is always 
looked to by the people around the world for that leadership, 
and I am confident that that leadership will be maintained.
    It is the great changes that have happened, the great 
growth in the Internet that has benefitted the people in the 
developing world and elsewhere perhaps most dramatically. And I 
think that is first and foremost something that we always need 
to keep in mind.
    It is also important to recognize, as many of the comments 
this morning, that this is not about the ITU as an institution. 
The ITU is an important institution to the United States. 
Hamadoun Toure, the Secretary-General, has been very important 
as a leader and very helpful to the United States and 
otherwise.
    Having said that, this is about other member states that 
has been outlined by a number of the answers earlier today, and 
those are the issues and the coalitions we need to build, the 
issues we need to address, and the facts we need to gather.
    And with that, I believe my time is about to expire and I 
don't to delay this any further. Thank you very much.
    [The prepared statement of Mr. Gross follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.029
    
    [GRAPHIC] [TIFF OMITTED] 79558.030
    
    [GRAPHIC] [TIFF OMITTED] 79558.031
    
    [GRAPHIC] [TIFF OMITTED] 79558.032
    
    [GRAPHIC] [TIFF OMITTED] 79558.033
    
    [GRAPHIC] [TIFF OMITTED] 79558.034
    
    Mr. Walden. Ambassador Gross, thank you not only for your 
leadership on this issue but your testimony today and your 
encouragement on our bipartisan resolution, which we hope to be 
able to move rather rapidly to the House Floor.
    Mr. Cerf, we are delighted and honored to have you here 
today, sir. We look forward to your verbal presentation of your 
testimony and your insights on this matter.

                    STATEMENT OF VINTON CERF

    Mr. Cerf. Thank you very much, Chairman Walden. And I see 
that Ranking Member Eshoo had to depart but I certainly 
appreciate her participation today. And members of the 
subcommittee, it is an honor to address you.
    My name is Vint Cerf. I currently serve as Vice President 
and Chief Internet Evangelist at Google. As one of the fathers 
of the Internet and as a computer scientist, I care deeply 
about the future of the Internet and I am here today because 
the open Internet has never been at higher risk than it is now. 
A new international battle is brewing, a battle that will 
determine the future of the Internet. And if all of us from 
Capitol Hill to corporate headquarters to Internet cafes in 
far-off villages don't pay attention to what is going on, users 
worldwide will be at risk of losing the open and free Internet 
that has brought so much to so many and can bring so much more.
    If we follow one path, a path of inclusion, openness, and 
commonsense, I am convinced that the Internet of the future 
will be an even more powerful economic engine and 
communications tool than it is today. The other path is a road 
of top-down control dictated by governments. This would be a 
very different system, a system that promotes exclusion, hidden 
deals, potential for indiscriminate surveillance, and tight 
centralized management, any one of which could significantly 
hinder Internet innovation and growth.
    At the crossroads stands the International 
Telecommunication Union, an agency of the United Nations that 
came into being to regulate international telegraph services 
just 4 years after the Pony Express closed its doors. This 
agency plans to meet in 6 months to consider proposed changes 
to the international agreements governing telecommunications. 
Until this year the ITU--which, through the U.N., includes 193 
member countries, each with only a single vote--has focused its 
attention on telecommunications networks and policies such as 
setting international standards for telephone systems, 
coordinating the allocation of radio frequencies and 
encouraging the development of telecommunications 
infrastructure in developing nations.
    On the whole, this status quo has been benign and even 
helpful to the spread of the Internet. But the organization 
recently passed a resolution in Guadalajara calling to 
``increase the role of the ITU in Internet governance.'' This 
should cause significant concern.
    In addition, some powerful member states see an opportunity 
to assert control over the Internet through a meeting in Dubai 
this coming December. Several proposals from member states of 
the ITU would threaten free expression on the web. Others have 
called for unprecedented mandates and economic regulations that 
would, for example, impose international Internet fees in order 
to generate revenue for state-owned telecommunications 
companies. The international attack on the open Internet has 
many fronts.
    Take, for example, the Shanghai Cooperation Organization, 
which counts China, Russia, Tajikistan, and Uzbekistan among 
its members. This organization submitted a proposal to the U.N. 
General Assembly last September for a so-called international 
code of conduct for information security. The organization's 
stated goal was to establish government-led international norms 
and rules standardizing the behavior of countries concerning 
information and cyberspace. Should one or more of these 
proposals pass, the implications are potentially disastrous.
    First, new international control over the Internet could 
trigger a race to the bottom where serious limits on the free 
flow of information could become the norm rather than the 
exception. Already, more than 20 countries have substantial or 
pervasive online filtering according to the Open Net 
Initiative. And the decentralized bottom-up architecture that 
enabled the Internet's meteoric rise would be flipped on its 
head. The new structure would have the unintended consequence 
of choking innovation and hurting American business abroad.
    As you can see, the decisions made this December in the ITU 
could potentially put regulatory handcuffs on the net with a 
remote U.N. agency holding the keys. And because the ITU 
answers only to its member states rather than to citizens, 
civil society, academia, the technical industry, and the broad 
private sector, there is a great need to insert transparency 
and accountability into this process.
    So what can you do? I encourage this committee to take 
action now by urging the U.S. Government in partnership with 
likeminded countries and their citizens to engage in this 
process and protect the current bottom-up, pluralistic system 
of Internet governance and to insist that the debate at the ITU 
and all other international fora be open to all stakeholders. 
It is critically important for you to engage and help ensure 
that the world understands that the economic, social, and 
technical advances driven by the Internet are endangered by 
these efforts.
    Thank you for the opportunity to testify on this very 
serious matter. I look forward to answering your questions.
    [The prepared statement of Mr. Cerf follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.035
    
    [GRAPHIC] [TIFF OMITTED] 79558.036
    
    [GRAPHIC] [TIFF OMITTED] 79558.037
    
    [GRAPHIC] [TIFF OMITTED] 79558.038
    
    [GRAPHIC] [TIFF OMITTED] 79558.039
    
    [GRAPHIC] [TIFF OMITTED] 79558.040
    
    Mr. Walden. Mr. Cerf, thank you. We appreciate your 
leadership and comments.
    Now, we go to Sally Shipman Wentworth, Senior Manager, 
Public Policy, Internet Society. Ms. Shipman, thank you for 
being here. We look forward to your testimony as well.

              STATEMENT OF SALLY SHIPMAN WENTWORTH

    Ms. Wentworth. Thank you, Mr. Chairman.
    My name is Sally Shipman Wentworth, and I am senior manager 
of public policy for the Internet Society, a nonprofit 
organization dedicated to ensuring the open development, 
evolution, and use of the Internet for the benefit of all 
people throughout the world. On behalf of the Internet Society 
and our more than 55,000 members worldwide, many of whom are 
joining us in the audience and are watching the webcast around 
the world, I would like to sincerely thank Chairman Walden, 
Ranking Member Eshoo, and all the members of the subcommittee 
for the opportunity to testify on this important issue.
    The Internet Society was founded in 1992 by many of the 
same pioneers who built the Internet, one who is sitting next 
to me. Since that time, the organization has served as a global 
resource for technically vetted, ideologically unbiased 
information about the Internet as an educator for technologists 
and policymakers worldwide, and as an organizer and driver of 
community-based Internet initiatives around the world.
    The Internet Society also serves as the organizational home 
for the Internet Engineering Taskforce whose mission it is to 
make the Internet work better. We produce high-quality relevant 
technical documents that influence the way people design, use, 
and manage the Internet. These technical documents include the 
standards, guidelines, and best practices that created and 
continue to shape the Internet today.
    The International Telecommunication Union's upcoming World 
Conference on International Telecommunications has rightfully 
drawn heightened attention from the global community as some 
ITU member states have proposed amendments to a key treaty, the 
ITRs, that could have far-reaching implications for the 
Internet. While the Internet Society has no voting role in the 
ITU process, we do participate as what is called a sector 
member. In that capacity, we have raised significant concerns 
that rather than enhancing global interoperability, the outcome 
of the WCIT meeting could undermine the security, stability, 
and innovative potential of networks worldwide.
    The Internet Society understands why some of the ITU member 
states are focusing on the Internet and its infrastructure. The 
Internet has fundamentally changed the nature of communications 
globally and many nations view those changes as falling under 
the auspices of the ITU. Some proposals to the WCIT stem from 
the very real economic pressure that developing nations face as 
they seek to update their national policy frameworks to allow 
them to engage fully in the global information economy. But we 
are not convinced that the international treaty-making process 
represents the most effective means to manage cross-border 
Internet communications or to achieve greater connectivity 
worldwide. We are concerned that some of the proposals being 
floated in advance of the December meeting are not consistent 
with the proven and successful multi-stakeholder model. And 
finally, we are concerned that the WCIT process itself, which 
severely limits meaningful nongovernmental participation, could 
create negative outcomes for the Internet.
    The Internet model is characterized by several essential 
properties that make it what it is today--a global, unified 
network of networks that is constantly evolving that has 
provided enormous benefits but enables extraordinary innovation 
and whose robustness is based on a tradition of open standards, 
community collaboration, and bottom-up consensus. As the 
Internet has flourished, Internet policy development at the 
global, regional, and national levels has continued to evolve 
to work harmoniously with the Internet to assure its ongoing 
development. This process has provided the capacity to cope 
with the necessary and fast-paced technological evolution that 
has characterized the Internet to date.
    In contrast to this approach, some WCIT submissions seek to 
apply old-line legacy telecommunication regulations to Internet 
traffic in a manner that could lead to a more fragmented, less 
interoperable global Internet for all. For example, proposals 
related to traffic routing, numbering, and peering would have 
significant impacts on the future growth of the Internet. But 
while we find strong cause for concern about the agenda of the 
WCIT meeting, there is no reason why it cannot produce 
thoughtful worthwhile policy developments that advance the 
mission of the ITU and the ongoing expansion of global 
communications without imposing dangerous and unnecessary 
burdens on the Internet.
    Many ITU member states, including the U.S., have shown that 
they understand the value of the Internet and its unique multi-
stakeholder model. Those delegates are in a critical position 
to advance an agenda at WCIT that respects the Internet and its 
global contributions while continuing to support the pro-
competitive policies that have been so successful since the 
ITRs were first negotiated in 1988. Working with allies from 
around the globe, the United States Government has an 
opportunity to help chart a productive course forward at WCIT 
and to ensure that the value of the multi-stakeholder model and 
a light-touch regulatory approach are highlighted.
    The Internet Society stands ready to play its part in this 
process and to assist the subcommittee in any way it can. Thank 
you very much for this opportunity.
    [The prepared statement of Ms. Wentworth follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.041
    
    [GRAPHIC] [TIFF OMITTED] 79558.042
    
    [GRAPHIC] [TIFF OMITTED] 79558.043
    
    [GRAPHIC] [TIFF OMITTED] 79558.044
    
    [GRAPHIC] [TIFF OMITTED] 79558.045
    
    [GRAPHIC] [TIFF OMITTED] 79558.046
    
    [GRAPHIC] [TIFF OMITTED] 79558.047
    
    [GRAPHIC] [TIFF OMITTED] 79558.048
    
    [GRAPHIC] [TIFF OMITTED] 79558.049
    
    [GRAPHIC] [TIFF OMITTED] 79558.050
    
    Mr. Walden. Ms. Wentworth, thank you for your testimony.
    And we will go into questions now. And I want to go 
straight to you.
    You mentioned in your testimony there are other parts of 
the United Nations that have activities concerning Internet 
governance. If the ITU meeting is not the only place where this 
is being discussed, what other things are going on that we 
should be aware of?
    Ms. Wentworth. Yes, thank you for that question. I do think 
it is important that we put the WCIT in context. The WCIT is an 
extremely important event in 2012. It is a treaty-making 
conference but the discussion of Internet governance will not 
stop there. There are ongoing discussions within the United 
Nations framework in the Commission for Science and Technology 
for Development within the International Telecommunications 
Union and within the U.N. General Assembly that seek to take on 
these issues of Internet governance with a great deal of 
specificity. All of these discussions are things that we at the 
Internet Society are following carefully and we think that 
multi-stakeholder engagement and discussion of these issues 
over the next several years is going to be extremely important.
    Mr. Walden. Mr. Cerf, you seem to be weighing in there with 
a nodding head.
    Mr. Cerf. I am certainly in agreement with Ms. Wentworth. 
First of all, the ITU is not the only element in the United 
Nations that is interested in Internet matters. The point about 
the Committee on Science and Technology is one example; ECOSOC 
is another. There is a long list of players who see the 
Internet as a very fundamental part of the environment now and 
they would like very much to have some influence over it. I 
worry about even such activities as the Internet Governance 
Forum, which emerged out of the world summit on the Information 
Society. The reason it has been successful, at least up until 
now, is that it started as a multi-stakeholder activity but as 
responsibility for the subject matter under discussion in the 
IGF shifted from one body to another, the question about who 
controls the agenda now becomes a big issue.
    The process of involvement in the United Nations has one 
unfortunate property that it politicizes everything. All the 
considerations that are made, whether it is in the ITU or 
elsewhere, are taken and colored by national interests. As a 
longstanding participant in the Internet Architecture Board and 
the Internet Engineering Taskforce where we check our guns at 
the door and we have technical discussions about how best to 
improve the operation of the Internet, to color that with other 
national disputes which are not relevant to the technology is a 
very dangerous precedent. And that is one of the reasons I 
worry so much about the ITU's intervention in this space.
    Mr. Walden. There are some press reports out of this 
hearing already that would tend to say that Ambassador 
Verveer's comments mean there really isn't a grave threat to 
the Internet and that there aren't these serious threats on the 
table. Would you agree with that characterization or do you 
feel this is a very serious matter?
    Mr. Cerf. I am still very nervous, Mr. Chairman, about this 
process. I will make one observation that it is not just a 
matter of the voting question and the one nation, one vote. The 
substance of the changes or additions to the treaty are 
critical. And here we have somewhat more leverage I think. 
Those are not necessary just a matter of voting. I think 
Ambassador Gross will probably amplify on this, but the 
negotiations for the actual language probably gives more 
leverage to us than the actual voting process does. But I have 
to say, Mr. Chairman, that there is a notion in what is called 
chaos theory called the butterfly effect. The butterfly waves 
its wings in Indonesia and we have a tsunami somewhere else. I 
do worry that small changes can be used and interpreted----
    Mr. Walden. Right.
    Mr. Cerf [continuing]. In ways that could be quite 
deleterious to the utility of the Internet.
    Mr. Walden. And Ambassador Gross, what strategies did you 
employ when you had the honor and opportunity to fend off 
international regulation of the Internet that the U.S. 
Government should follow now?
    Mr. Gross. Well, thank you very much. And if I may, before 
addressing that, I just want to echo exactly what Vint Cerf 
just said. And I think one of the keys here as we think about 
this is this is not about a discussion at WCIT about broad 
policies. That happens at conferences on a regular basis and 
are very important. And something that this chamber can 
particularly appreciate, the negotiations over our treaty text, 
language, language is important. Language has impact. And so 
what will be a real test for our negotiators and for all of us 
is to be careful as to the language so the language doesn't 
come forward and mean something today and mean something very 
different than the way in which, for example, Commissioner 
McDowell talked about where it morphs into something very 
difficult and something very dangerous. This is not an issue of 
the ITU secretariat. This is an issue for member states to 
negotiate and to be very, very cognizant about.
    With regard to strategies, I think the strategies have 
been--already some of them have been adopted by the current 
group. That is it is very important to be clear. One of the 
problems and one of the opportunities you always have in 
international negotiations is to find fuzzy language to cover 
up. One of the keys here because of the importance of the issue 
and because of the implications of the issue for the over two 
billion users of the Internet worldwide is to be very clear as 
to what it is the U.S. is interested and willing to discuss and 
to negotiate of which there are many things and those areas 
which are redlines, things for which we will not agree. And it 
is not a question of finding the precise language. It is yes; 
it is no. It is very, very binary in that sense. And I think 
that will be very clear. And the building of the coalitions as 
was discussed in the first panel I think is obvious and 
important and I am very confident we will be able to do that.
    Mr. Walden. I appreciate your answers to my questions, all 
the panelists.
    We will now go to the gentleman from Massachusetts, Mr. 
Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    So, Mr. Cerf, which countries are you most concerned about 
in terms of their agenda?
    Mr. Cerf. Well, as we heard earlier, the ones that are most 
visible right now in my view are Russia and China who have 
their names on a number of proposals. But others have come 
forward, surprising ones. Brazil, for example, and India have 
surprised me with their interest in intervening and obtaining 
further control. The others are the ones that you would 
normally expect. We hear from Syria, we hear from other 
repressive regimes, even those in Saudi Arabia, for example. 
Those who are threatened by openness and freedom of expression 
are the ones that are most interested in gaining control 
through this means.
    Mr. Markey. Um-hum.
    Mr. Cerf. There are other motivations, however, that also 
drive this whole process. The developing world has historically 
generated substantial revenue from telecommunication services, 
as I am sure you are well aware. The Internet has become the 
alternative to much of what had been the telecommunications 
environment and I see them looking for ways, adapting the 
earlier telecommunications settlement arrangements, 
interconnection arrangements and the like as a way of 
recovering revenue that they didn't have. So there are 
multiple----
    Mr. Markey. Ambassador Gross mentioned this--give us one 
redline subject that we should never entertain?
    Mr. Cerf. I think two things in particular. I would never 
want to see any of the ITU-T standards being mandatory. They 
should stay in voluntary form. And second, I think we should 
run away from any kind of settlement arrangements or enforced 
interconnection rules that would interfere with the open and 
very private sector aspect of Internet connectivity. Today, it 
is a voluntary system. It grows biologically and it has 
benefitted from that.
    Mr. Markey. Is there an analogy here to the satellite 
system that allowed governments to just extract windfall 
profits in countries all around the world that ran totally 
contrary to what should be the policy, to ensure that every 
citizen has real access to a phone network?
    Mr. Cerf. This is an economic question of an engineer and I 
have this feeling you might deserve the answer that you got. To 
be honest, I think that we see a great desire to take advantage 
of the Internet in ways that damage the freedom and openness 
and the permission-less innovation which has allowed it to 
grow. To allow any rules that sequester this innovation and 
inhibit others would damage the future of the Internet 
dramatically. When you see new applications coming along, they 
come from virtually anywhere in the world. They don't all come 
from the United States, and it is important that we preserve 
that capability.
    Mr. Markey. Thank you. No, but I appreciate kind of the 
global nature that you bring to it, the butterfly effect in 
Indonesia here creating a tsunami in another place. Here in the 
United States we just say it is Mrs. O'Leary's cow that 
ultimately burns down the whole city, but that would be too 
American. You know, you want to give us the global view of 
where innovation can occur, where a disaster can emanate from 
in terms of the impact that it has upon the global Internet 
system. But that is who you are. You know, that is what this 
panel is really all about.
    Ambassador Gross, give us your one redline. Do you agree 
with Mr. Cerf or do you have another issue as well?
    Mr. Gross. I always agree with Vint but I think actually 
there are a number of redlines.
    Mr. Markey. Give me one and then I am going to go to Ms. 
Wentworth.
    Mr. Gross. Well, I think the number one redline is that 
there should be no top-down control of the Internet directly or 
indirectly associated with any international governmental 
institution, including the ITU.
    Mr. Markey. OK. And Ms. Wentworth, do you have one?
    Ms. Wentworth. We would certainly agree with the comments 
of Mr. Cerf with respect to making voluntary standards 
mandatory. That would have considerable impact on the 
engineering architecture that goes into the Internet. And we 
are also very focused on the definitions in the treaty. As we 
know, definitions will give you the scope and a number of the 
proposals to change the definitions would in fact clearly 
implicate the Internet in the treaty.
    Mr. Markey. Mr. Cerf, give us your 30 seconds. What do you 
want this committee to remember as we go forward over the next 
6 months and over the next 6 years in terms of what we should 
be apprehensive about?
    Mr. Cerf. So you have already started. This hearing is a 
wonderful beginning. The proposed legislation speaking to this 
problem in a bipartisan--I am sitting here thinking bilateral--
bipartisan way----
    Mr. Markey. It is so rarely used that, you know, I know why 
it is hard to come up with----
    Mr. Cerf. Voicing your concerns to the Executive Branch 
also extremely important and making this visible around the 
world is also very important. So I think you have started that 
process and I am deeply grateful for it.
    Mr. Markey. Great, thank you.
    My time is expired. I apologize.
    Mr. Shimkus [presiding]. The gentleman's time is expired. I 
would like to recognize myself for 5 minutes.
    I mean, I really enjoy this discussion because it is when 
free nations give up their decision-making process to a world 
organization that is not totally defined to be free, then there 
should be credible concerns. And I think we are raising those 
today. We debate this issue about the U.N. We get asked by our 
constituents all the time about the role of the U.N. Should we 
be involved in the U.N.? Should we fund the U.N.? And I have 
tried to keep a balanced view where I haven't voted to leave 
the U.N. but I have been skeptical about the role it plays. So 
it is keep current funding, get reforms.
    Here are some of the things that the U.N. has done. Cuba 
was vice president of the United Nations' Human Rights Council 
and China, Russia, and Saudi Arabia also serve on that council. 
North Korea and Cuba serve as head of the Conference on 
Disarmament. Mugabe was just named a U.N. leader for tourism by 
the U.N. World Trade Organization. Iran sits on the U.N. 
Commission on the Status of Women and formerly chaired the 
Joint Board of the U.N. Development Program and the U.N. 
Population Fund. Saudi Arabia is a member of the Executive 
Board of U.N. Women. I am not making this up and you can't. But 
I mean that is a concern.
    And there has also been some international debate and 
discourse about having a world organization based upon shared 
values--democracy, freedom, rule of law--things that would make 
this process a little bit easier than trying to negotiate with 
totalitarian regimes who will not have the best interest of 
free discourse and exchange of views and ideas and values. So I 
appreciate you coming. I appreciate the raising of this concern 
and making sure that we are all in and prepared to keep this 
great architecture.
    I took a picture of you all when we started and I Tweet 
like a lot of people and, you know, kind of did the headline of 
the hearing, and I said if it is not broken, don't fix it. That 
system has worked. Obviously, there is some tinkering that some 
of you agree that must be done or is there not? Should we not 
touch it? Or if there is tinkering to be done, what should be 
done? Mr. Gross?
    Mr. Gross. Well, thank you very much. The answer is there 
are always opportunities to improve anything, except for my 
wife who is sitting behind me, of course. But instead, I think 
the key here is who does the tinkering and what the mechanism 
is? I think the genius of the Internet has been not only its 
decentralized nature but its multi-stakeholder processes for 
making decisions, bringing those with the best and the 
brightest ideas from wherever they are no matter what their 
positions are to be able to have a say and to make those 
decisions in a voluntary, bottom-up approach. That approach is 
the key.
    And I think the rub here, as you have heard this morning 
and early this afternoon has been concern about a top-down 
governmental set of ways of dealing with what are undoubtedly 
real issues for real people around the world, whether it is 
security, whether it is fraud. It is a variety of things. We 
know that there are many issues that need to be addressed. Who 
does the addressing? What those mechanisms turn out to be I 
believe are really the key to success in the way to deal with 
these issues.
    Mr. Shimkus. And I was going to ask all three but I want to 
get a different question to Mr. Cerf. Any tinkering, no matter 
how well intentioned, could it be flexible enough to keep the 
process moving forward or will tinkering itself really mess up 
the stakeholder involvement in the system we have today?
    Mr. Cerf. So I think several observations might be relevant 
here. The first one is that we can't run away from the United 
Nations because it is too important a body for us to ignore. So 
we have to participate in its processes. But we have another 
opportunity which I think we should emphasize and that is to 
encourage more international involvement among the various 
nation-states in the multi-stakeholder processes that are open 
and available to them. That includes the Internet Governance 
Forum, the Internet Engineering Taskforce, ICANN itself and all 
of its multi-stakeholder processes. I think if we make those 
increasingly attractive and effective that this could be a 
counterbalance and alternative to the focus of attention which 
is leading in the direction of U.N.-based activity. This would 
also reinforce what we have discovered over the last 15 years, 
which is that multi-stakeholder processes actually work. They 
do bring many different points of view to the table and they 
result in better policy.
    Mr. Shimkus. Thank you. And I appreciate it. I don't have 
time to ask my follow-up question to you but I apologize. Thank 
you for your testimony.
    And now, I would like to recognize the ranking member of 
the full committee, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Mr. Cerf, earlier today, Ambassador Verveer stated that the 
U.S. is advocating for the WCIT conference report to be made 
available to the public. In addition to this proposal for 
increased transparency, what other specific measures can be 
taken to shine more light into the ITU's processes?
    Mr. Cerf. Well, the obvious possibility would be to open 
this process up to other stakeholders, which is not a typical 
conclusion one reaches in international agreements. But it 
strikes me--again, reflecting back on our written successes 
with multi-stakeholder processes--that transparency and 
openness produces much better results. Now, whether anyone in 
the current governmental world could be persuaded of that, I 
don't know. But I am a great advocate of trying to include 
civil society, the technical world, the private sector in 
matters that will have a very direct impact on them. So once 
again, publication of proposals and involvement of other 
stakeholders would be very attractive.
    Mr. Waxman. Well, I would think it is critical for the U.S. 
and other countries that have seen the positive impact of the 
Internet on their economies to highlight to the ITU 
participants and other stakeholders of potential negative 
consequences of the regulation of the Internet on the world's 
economy. But what would be the role for the private sector in 
this process? How would they participate?
    Mr. Cerf. So the private sector actually operates most of 
the Internet. I don't know what the numbers are but it probably 
exceeds 90 percent. So in some sense, no matter what we do, no 
matter what anyone says, it is the private sector that operates 
this entity and its actions in a sense determine what kind of 
Internet we all have. So my belief is that we have an 
opportunity here to empower the private sector to engage in 
policy-making which does not have an avenue to do today, at 
least not very effectively. For example, you will hear the ITU 
say, well, you could be a sector member. I think Ms. Wentworth 
might agree with me that even as a sector member having paid 
your dues, you don't always either get to participate or even 
have, you know, current information about what is under debate. 
So once again, I think openness is going to be our friend here 
but we have to advocate strongly and loudly for it.
    Mr. Waxman. Ms. Wentworth or Mr. Gross, do you have any 
additional comments or suggestions to increase the transparency 
of the ITU process?
    Ms. Wentworth. Well, the Internet Society has certainly 
been an advocate of opening up this process for the WCIT in 
general, the Internet policy-related discussions that are 
happening within the United Nations more broadly, we think that 
the discussions can only benefit from more transparency. We 
come from the technical community and we look at some of these 
proposals and think that there is a lot of that could be said 
about the technical implications of what is being proposed. How 
do networks actually work? And would these proposals even be 
consistent with the architecture that we are trying to keep in 
place? And the answer is no in many cases. But that voice is 
not heard in the current process. We speak up when we can but 
we have, even as a sector member, very limited opportunities to 
engage.
    Mr. Waxman. Mr. Gross?
    Mr. Gross. I think there are two sort of direct things. One 
is we should continue to advocate for other member governments 
to open up their domestic processes to allow for greater 
participation. The U.S. has greatly benefitted in terms of our 
negotiation but also our decision-making by the openness that 
we have always traditionally had and we want to continue to 
encourage that of others.
    I think also at its core the problem here is that the ITU 
is by definition and intergovernmental organization. Only 
governments have votes. And so, ultimately, part of the 
question really is this issue is not a big issue when you deal 
with certain sets of issues, but when you deal with Internet 
issues, for example, that at their core are about over two 
billion people and their access to information, those are the 
ones that sort of call for the question not only of 
transparency but also where the lines are about what the ITU 
should be focusing on and what it should not be focusing on. I 
think that is where a lot of the issues can be resolved.
    Mr. Waxman. Well, thank you very much.
    I yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes Ms. Christensen for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And thank you for your testimony and for your answers.
    Mr. Gross, in Ambassador Verveer's testimony he stated--and 
all of you voiced the same concern--that allowing governments 
to monitor and restrict content or impose economic costs on 
international data traffic are of particular concern to the 
United States. We have talked a lot about the monitoring and 
restricting of content but could you share with us your 
coalition's views on the proposals regarding imposing the 
economic clause on international data traffic?
    Mr. Gross. Sure. I think it will come as no surprise to 
anyone that those are critically important issues. There are a 
number of different pieces of that. It is not just about the 
fact that it may change from a system in which there is 
voluntary market-driven contractual decisions made to exchange 
traffic into one for which there are some proposals to have 
some top-down regulatory regime akin, as Vint Cerf said, to the 
old settlements and accounting rate systems of the old 
telephone system. That is certainly a substantial concern and 
should be a substantial concern to everyone.
    But also it extends to the issue of economic regulation and 
control about the issue of innovation generally throughout the 
Internet ecosystem, the ability--as Vint talked about--of 
innovations and changes and new technologies and new 
applications coming from anywhere, from anyone and the ability 
for all of us to benefit from that. And ultimately, all of that 
often boils down to one of I think the great core issues for 
all of us, which is the seamless flow of information, the 
ability of information whether it is commercial, political, 
economic, social to be able to flow seamlessly across the 
networks in ways that benefit the global community.
    Mrs. Christensen. Thank you. Go ahead.
    Mr. Cerf. I wonder if I could----
    Mrs. Christensen. Sure.
    Mr. Cerf [continuing]. Amplify on this just if you would 
permit.
    There is this notion of nontariff trade barrier. I am sure 
you are very familiar with that. What I worry about is that the 
insidious effect of putting in detailed rules that amplify 
former telephone practices and projecting those into the 
Internet has the potential to destroy this sort of permission-
less innovation but it also has the possibility of destroying 
potential markets. This is not just an American issue.
    Mrs. Christensen. Right.
    Mr. Cerf. We care about it because at Google we are a 
global operation and we want to reach everybody with our 
products and services. But the inverse is true. Anyone in the 
world should be able to reach anyone else in the world with a 
new product and a new service. Countries that choose to go away 
from that kind of openness are actually harming themselves and 
their own opportunities to exploit the Internet for improved 
GDP growth. And I worry greatly about that.
    Mrs. Christensen. Thank you. Well, just to continue with 
you a minute, Mr. Cerf, many countries do struggle with the 
problem of bringing broadband access to their citizens and look 
to the International Telecommunications Union for solutions to 
that problem. And you talk about this briefly earlier. How 
should we respond to their legitimate concerns? What can the 
U.S. Government do and what can private parties do?
    Mr. Cerf. So this is a wonderful question. Thank you so 
much for asking it. Two observations. First of all, the ITU, 
through its D, the Development Organization, has actually 
contributed to the growth of the net. I am a member of the 
Broadband Commission that seeks to find ways to expanding 
broadband access to the Internet all around the world. In that 
sense, a tip of the hat to ITU-D for that work.
    At Google, we found many opportunities in the private 
sector to help expand access around the world. We take our 
equipment which we don't need anymore, we donate it to 
organizations like the Network Startup Resource Center at the 
University of Oregon. They repurpose that equipment. They 
deliver it to people especially in the Southern Hemisphere. 
Then, they train them. Then, they get books and documentation 
from Tim O'Reilly's publications and they set them up to 
actually build and operate pieces of the Internet which now get 
connected together to the rest of the global system. There are 
endless opportunities here for the private sector to engage. 
Anything that you and the committee can do to help make that 
easier to do would be most helpful. Legislation that makes it 
easier for us to repurpose equipment and to do training 
overseas would be very, very helpful. Just to advocate for that 
would be a good thing.
    Mrs. Christensen. Well, thank you. I am out of time.
    Mr. Shimkus. The gentlelady's time is expired.
    We want to thank you for appearing. I would just end by 
saying totalitarian regimes may not care if they have systems 
that work, and so as you have totalitarian regimes involved in 
international negotiations, they may want a system that doesn't 
work across international lines and stuff, just a cautionary 
note on my part.
    Also, I need to say that the record will remain open for 10 
days. You may get additional questions submitted to you by 
members of the committee. If you could reply to those if they 
come, we would appreciate that. Again, we appreciate your time 
being here.
    And this hearing is now adjourned.
    [Whereupon, at 1:01 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 79558.051
    
    [GRAPHIC] [TIFF OMITTED] 79558.052
    
    [GRAPHIC] [TIFF OMITTED] 79558.053
    
    [GRAPHIC] [TIFF OMITTED] 79558.054
    
    [GRAPHIC] [TIFF OMITTED] 79558.055
    
    [GRAPHIC] [TIFF OMITTED] 79558.056
    
    [GRAPHIC] [TIFF OMITTED] 79558.057
    
    [GRAPHIC] [TIFF OMITTED] 79558.058
    
    [GRAPHIC] [TIFF OMITTED] 79558.059
    
    [GRAPHIC] [TIFF OMITTED] 79558.060
    
    [GRAPHIC] [TIFF OMITTED] 79558.061
    
    [GRAPHIC] [TIFF OMITTED] 79558.062
    
    [GRAPHIC] [TIFF OMITTED] 79558.063
    

                                 <all>

</pre></body></html>
